<html>
<title> - [H.A.S.C. No. 111-24] SECURITY DEVELOPMENTS IN THE AREAS OF RESPONSIBILITY OF THE U.S. SOUTHERN COMMAND, NORTHERN COMMAND, AFRICA COMMAND, AND JOINT FORCES COMMAND </title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 111-24] 

   SECURITY DEVELOPMENTS IN THE AREAS OF RESPONSIBILITY OF THE U.S. 
 SOUTHERN COMMAND, NORTHERN COMMAND, AFRICA COMMAND, AND JOINT FORCES 
                                COMMAND 

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 18, 2009

                                     
             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

53-207 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 















                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          JOHN M. McHUGH, New York
SOLOMON P. ORTIZ, Texas              ROSCOE G. BARTLETT, Maryland
GENE TAYLOR, Mississippi             HOWARD P. ``BUCK'' McKEON, 
NEIL ABERCROMBIE, Hawaii                 California
SILVESTRE REYES, Texas               MAC THORNBERRY, Texas
VIC SNYDER, Arkansas                 WALTER B. JONES, North Carolina
ADAM SMITH, Washington               W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ELLEN O. TAUSCHER, California        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           ROB BISHOP, Utah
SUSAN A. DAVIS, California           MICHAEL TURNER, Ohio
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
RICK LARSEN, Washington              MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JIM MARSHALL, Georgia                BILL SHUSTER, Pennsylvania
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
PATRICK J. MURPHY, Pennsylvania      DOUG LAMBORN, Colorado
HANK JOHNSON, Georgia                ROB WITTMAN, Virginia
CAROL SHEA-PORTER, New Hampshire     MARY FALLIN, Oklahoma
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
DAVID LOEBSACK, Iowa                 JOHN C. FLEMING, Louisiana
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GABRIELLE GIFFORDS, Arizona          THOMAS J. ROONEY, Florida
NIKI TSONGAS, Massachusetts
GLENN NYE, Virginia
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama

                    Erin C. Conaton, Staff Director
                     Paul Oostburg, General Counsel
              Aileen Alexander, Professional Staff Member
                    Caterina Dutto, Staff Assistant































                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Wednesday, March 18, 2009, Security Developments in the Areas of 
  Responsibility of the U.S. Southern Command, Northern Command, 
  Africa Command, and Joint Forces Command.......................     1

Appendix:

Wednesday, March 18, 2009........................................    43
                              ----------                              

                       WEDNESDAY, MARCH 18, 2009
   SECURITY DEVELOPMENTS IN THE AREAS OF RESPONSIBILITY OF THE U.S. 
 SOUTHERN COMMAND, NORTHERN COMMAND, AFRICA COMMAND, AND JOINT FORCES 
                                COMMAND
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McHugh, Hon. John M., a Representative from New York, Ranking 
  Member, Committee on Armed Services............................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Mattis, Gen. James N., USMC, Commander, U.S. Joint Forces Command 
  and Supreme Allied Commander Transformation for NATO...........     7
Renuart, Gen. Victor Eugene ``Gene,'' Jr., USAF, Commander, U.S. 
  Northern Command and Commander, North American Aerospace 
  Defense Command................................................     6
Stavridis, Adm. James G., USN, Commander, U.S. Southern Command..     4
Ward, Gen. William E. ``Kip,'' USA, Commander, U.S. Africa 
  Command........................................................     8

                                APPENDIX

Prepared Statements:

    Mattis, Gen. James N.........................................   112
    Renuart, Gen. Victor Eugene ``Gene,'' Jr.....................    79
    Stavridis, Adm. James G......................................    47
    Ward, Gen. William E. ``Kip''................................   135

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Larsen...................................................   172
    Mr. LoBiondo.................................................   171
    Mr. Miller...................................................   167
    Mr. Wilson...................................................   170
   SECURITY DEVELOPMENTS IN THE AREAS OF RESPONSIBILITY OF THE U.S. 
 SOUTHERN COMMAND, NORTHERN COMMAND, AFRICA COMMAND, AND JOINT FORCES 
                                COMMAND

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Wednesday, March 18, 2009.
    The committee met, pursuant to call, at 10:04 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Our committee comes to order. And today's 
hearing is part of our annual series of posture hearings with 
combatant commanders.
    And I am pleased to welcome Admiral Stavridis of the U.S. 
Southern Command (SOUTHCOM), General Renuart of the U.S. 
Northern Command (NORTHCOM) and North American Aerospace 
Defense Command (NORAD), General Mattis of the United States 
Joint Forces Command, and General Ward of the United States 
Africa Command (AFRICOM).
    We are honored to have each of you with us today. We thank 
you.
    I also want to extend my appreciation to all the servicemen 
and women who work with you. They provide an invaluable service 
to our country.
    Every day, each of you enter intractable challenges that 
are not always part of the morning headlines, but are 
nevertheless vital to our national security. Let me mention a 
few.
    Latin America, narco-syndicates have stained the streets of 
Juarez, Tijuana, and elsewhere in Mexico with the blood of 
criminals and innocents alike, as drug lords struggle to 
survive against a Mexican government-led crackdown and inter-
gang warfare.
    The impact of this violence on our borders concerns me very 
much in both the near term, as well as the long term regarding 
the state of Mexico. I would like to hear from General Mattis 
and General William Ward about the nature of the threat that we 
have been experiencing on our Mexican borders and in Mexico.
    Turning to the rest of the region, over much of the last 
decade, a growing number of countries seem to have removed 
their welcome mats, leaving our country with fewer allies with 
whom we can contain and continue to build strong military-to-
military partnerships. The implication of this trend for our 
ability to conduct counternarcotics and other operations merit 
careful monitoring.
    And, Admiral, I welcome your thoughts on this trend.
    General Ward, congratulations on your efforts so far. In 
short order, you have brought Africa Command from being a 
little more than a concept to becoming a fully operational 
combatant command, with robust interagency participation. We 
thank you for that.
    As AFRICOM continues to plan and execute its mission, it 
seems to me that improving the Combatant Command (COCOM) 
strategic communications is your primary challenge. Your task 
is to explain how working with our African partners to promote 
stability and security on the continent is consistent with our 
core national security interests.
    It is tough to draw the linkage from the work you do today 
to preventing the coups, the regional wars, and the manmade 
disasters that hopefully will never happen in the future, but 
that is precisely what you do.
    Beyond your strategic communication challenges, the work of 
AFRICOM has raised other concerns. A lot of the requirements 
inherent in promoting stability and security within the African 
continent do not at first glance appear to be military tasks. 
Your command must be careful that, by virtue of its size, it 
does not squeeze out efforts of our civilian agencies, such as 
the State Department and the United States Agency for 
International Development (USAID).
    With that, let me turn to my good friend, my colleague, 
John McHugh from New York, and, again, thank each of you for 
your excellent contributions to our country. We look forward to 
your testimony.
    Mr. McHugh.

  STATEMENT OF HON. JOHN M. MCHUGH, A REPRESENTATIVE FROM NEW 
       YORK, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McHugh. Thank you very much, Mr. Chairman.
    Obviously, all of us welcome you gentlemen. We are in deep 
appreciation for the great leadership that you have shown. And 
please convey back to those brave men and women in uniform that 
you command ours and the nation's most profound respect and 
words of thanks.
    Mr. Chairman, as always, you have kind of encapsulated this 
very important hearing. It is certainly, in my judgment, one of 
the more critical ones we hold on annual basis. We are always 
very happy that our great leaders can be here in person, join 
us to cover the broad range of items, some of which you have 
outlined, Mr. Chairman.
    I would ask that my entire statement be entered into the 
record in its entirety.
    The Chairman. Without objection.
    Mr. McHugh. Thank you, Mr. Chairman.
    And beyond that, let me just underscore a couple of things 
that you said. We have very distinct areas of responsibility 
here, and each have their own significant challenges.
    Like you, one of the most pressing, in my judgment, is the 
very disturbing situation on the U.S.-Mexico border. I share 
your concern, as I do many others in this nation, Mr. Chairman, 
regarding that widening drug war, the possible reach of cartels 
into America's border towns.
    And it has gotten to the extent where even, just last week, 
the President has stated that he is at least considering 
deploying National Guard troops along that southern border and, 
like you, Mr. Chairman, I am very interested--and I hope we 
gather the opportunity today to discuss a bit about that 
circumstance and the way forward.
    NORTHCOM plays an important role in directing missile 
defense operations to protect the homeland. And given the 
nuclear and ballistic missile ambitions, and particularly in 
recent days of Iran and North Korea, we have the opportunity 
today to talk about NORTHCOM's capabilities and force structure 
to defend the United States from ballistic missile attack.
    And, Admiral, as you know and we have had the chance to 
discuss, you have some very unique security challenges in your 
region. And just to cite one, over the last few years, Colombia 
has really risen as a democratic leader with successes against 
insurgent and paramilitary groups that is due in no small 
measure to the people under your command and the support of 
this nation in those efforts.
    But for all of that, the drug production and trafficking 
are still a very significant challenge for that nation. And I 
think it is important for us to hear what we need to do to best 
support what I would argue is one of our most stalwart allies 
in South America and, in fact, in this hemisphere.
    And, General Ward, I think the chairman summed it up very 
well. You have done yeoman's work in setting up the command in 
one of the most complex and, I would argue, most misunderstood 
regions on the face of the Earth. And I think you have done an 
outstanding job.
    That has not been without challenges that no one knows more 
clearly than you, but whether it is questions of interagency 
presence and buy-ins, as well as the understandable delays in 
establishing certain offices, we need to hear today from you 
what kinds of areas still exist where you require the support 
of this Congress and this committee particularly.
    And, finally, General Mattis, as Joint Forces Command, 
amongst the many roles you play, that of providing mission-
ready forces to all geographic commands is key amongst them. 
And, obviously, as we draw down troops out of Iraq and begin to 
build up into Afghanistan, the demand in increase of support 
functions and those kinds of mission personnel is going to be 
even more critical.
    And the challenge that you face in meeting that, as the 
supplier of forces, is so vital, obviously, to those missions, 
but to us, as well. And I hope you will be able to give us an 
idea of how you are going to meet that growing requirement for 
support functions in Afghanistan and still meet the enduring 
requirement, as it may exist, in Iraq.
    So a lot on our plate here, Mr. Chairman, as you and I both 
agree. Certainly we want to get to the testimony and for the 
question-and-answer period and a final word of appreciation to 
our witnesses, and particularly a word of deep thanks to those 
men and women who they have the honor of leading.
    I would yield back.
    The Chairman. Thank you, Mr. McHugh.
    We will ask our witnesses--before that, I must say that, at 
high noon, I have a conflict and someone else will be helping 
you finish the hearing. Please understand.
    If you wish to condense your statement, without objection, 
each of your written statements will be placed into the record.
    With that, we will start with Admiral James G. Stavridis. 
Admiral.

  STATEMENT OF ADM. JAMES G. STAVRIDIS, USN, COMMANDER, U.S. 
                        SOUTHERN COMMAND

    Admiral Stavridis. Mr. Chairman, Mr. Ranking Member, thank 
you very much for holding this hearing and allowing us to 
present to you some ideas.
    I will make the point that this is a real Goldwater-Nichols 
hearing. You have Army, Navy, Air Force, Marines seated here. 
You could almost call it the Chairman Skelton hearing, in the 
sense of all that he contributed to jointness in Armed Forces.
    Also, I do want to say, as an admiral, I am always--I feel 
a little safer in the company of generals, especially Marine 
generals, so I feel pretty safe today, all things considered.
    We have had a good and a challenging year down in Southern 
Command. I am just going to hit five quick, interesting things 
that have happened in the course of the last year that maybe 
will enlighten some of our discussions as we go along today.
    First, a very good thing. Last week, in my headquarters in 
Southern Command, we had the three U.S. hostages who were held 
by the Colombian Revolutionary Armed Forces of Colombia (FARC) 
terrorists for five and one half years. Marc, Keith and Tom are 
their names, and they came to our headquarters to spend an 
afternoon with my command, talk about their experiences, and to 
be congratulated by my command for their performance under very 
arduous conditions.
    So it was a nice moment. And it kind of underscores what 
Representative McHugh was talking about, Colombia's 
capabilities. I mean, this was a Colombian operation, but it 
was mounted after a great deal of partnership-building by the 
United States over a ten-year period of bipartisan effort with 
Plan Colombia.
    So I am glad we have our hostages back, and I think it is 
reflective of the good general trend of events in Colombia.
    Secondly, last summer, we had a couple of big Navy ships 
come down to do a great deal of medical engagement and 
training. It was a terrific deployment. We contributed to 
medical care for about 200,000 people throughout the region.
    And we also had the opportunity as part of that deployment 
to have one of our Navy ships go to Haiti and respond to an 
enormous disaster there following the hurricane, a good 
indication of how our U.S. Navy's Fourth Fleet is able to do 
its missions of engagement, training, disaster relief in this 
region.
    Thirdly, we had a good year of military-to-military 
engagement, which is the heart of what we do. We had the 
largest exercise in the world, in terms of numbers of countries 
participating, 22 of them in and around the Panama Canal, an 
exercise called PANAMAX. Also did exercises in special forces, 
in disaster relief, in human rights training, in peacekeeping, 
a very robust schedule, and I appreciate the committee's 
support that makes all of that possible. That military-to-
military human contact trumps everything, in terms of moving 
ourselves forward in engagement in the region.
    Fourthly, we continue to struggle with the mission of 
detection and monitoring of the narcotic flows. And I am sure 
we will talk about that today. I continue to be concerned, as I 
have talked to this committee over the last couple of years, 
about the rise of the use of semi-submersible near submarine-
like platforms by the drug cartels.
    We have captured several of these moving as much as seven 
tons of cocaine. The numbers we see are rising; it is a 
significant challenge for us. We did with international 
assistance and with interagency assistance participate in 
interdicting 230 tons of cocaine.
    There is a lot more flowing, and I believe that a 
fundamental part of the solution to this narcotic problem is on 
the demand side here in the United States. We can only go so 
far with interdiction and work on the supply side. So perhaps 
we can touch on those topics today.
    I understand the concerns in Mexico. I would make the point 
to the committee that it is not just Mexico. It is also Central 
America and parts of the Caribbean. There is a supply chain of 
narcotics and great difficulties--gangs, poverty--that run 
through the region. And we need to address it as a regional 
problem and not focus solely on our border.
    And General Renuart and I are in frequent discussion about 
that, and I think we have a good program to try and work 
together across Central America and Mexico in addressing these 
kinds of issues.
    Lastly, I want to close by thanking the committee very much 
for your support to our new headquarters building down in 
Miami. We have been in a rented facility for ten years since 
the command moved from Panama. Due to the work of this 
committee and the support you have provided, there is a new 
building going up which will bring together Southern Command 
for the first time all in one building in a modern facility 
that will allow us to do our mission properly.
    It comes on land that was donated from the state of 
Florida. It is a great savings to the taxpayer over time. And I 
thank the committee for that.
    With that, I will close simply by saying thank you for your 
support for the men and women of U.S. Southern Command.
    [The prepared statement of Admiral Stavridis can be found 
in the Appendix on page 47.]
    The Chairman. Thank you so much, Admiral.
    General Victor Eugene Renuart, Jr. You like that ``Jr.''?

 STATEMENT OF GEN. VICTOR EUGENE ``GENE'' RENUART, JR., USAF, 
COMMANDER, U.S. NORTHERN COMMAND AND COMMANDER, NORTH AMERICAN 
                   AEROSPACE DEFENSE COMMAND

    General Renuart. And my mother does, too, as well, 
Chairman. Thank you very much.
    Chairman Skelton and Congressman McHugh, members of the 
committee, good morning. And like Jim Stavridis, I want to echo 
the true heartfelt thanks from all the men and women who serve, 
for the support from Congress in general, and certainly this 
committee in particular.
    It is really an honor and privilege to be here today 
representing the men and women of North American Aerospace 
Defense Command and U.S. Northern Command.
    And I want to point out, as I begin, I am pleased to be 
accompanied this morning by Command Sergeant Major Dan Wood, 
seated here behind me. Dan will be retiring in May after many 
years of service to the nation and tours in combat theaters in 
the recent years. And so I want to highlight Dan's service to 
you to say thank you to him, but also he represents our 
children and, in some cases, our grandchildren that are out 
there wearing the uniform of our nation every day.
    As commander of NORTHCOM, I am assigned really two 
particular missions, very specific and important missions, one, 
to defend the homeland from attack and, two, to support the 
nation with unique Department of Defense (DOD) capabilities in 
times of crisis. And so this runs the gamut from capabilities 
like ground-based midcourse interceptors for ballistic missile 
defense, the execution of the air sovereignty mission within 
the borders of the United States, support to law enforcement in 
areas like along the border, and to support federal agencies, 
both before and after disaster strikes, as was evidenced with 
the California wildfires and the hurricanes along the southern 
coast this past year.
    But it is important to note we are members of a combined 
national response. We don't do it alone. DOD does not and 
should not have the lead role in many of these events.
    We are part of a coordinated effort--international, 
federal, state partners, governors, the National Guard, all are 
keys to success for the nation, and DOD plays a role, in some 
cases, a very important role, in some cases, very much a small 
supporting role.
    It is also important to note that we have an excellent 
relationship with our international partners, Canada, Mexico, 
the--or Bermuda, the Bahamas, Turks and Caicos, Puerto Rico, 
and the Virgin Islands. All are part of our area of interest, 
and all play a key role, most notably our relationship with 
Mexico is as strong as it has ever been military-to-military, I 
think, in our history, and we continue to work closely with the 
leaders of Mexico, as they face some of the challenges in their 
home country.
    We train hard to execute our missions. We exercise those 
tasks routinely. I am pleased to say we now have a national 
exercise program that all the agencies of government 
participate in, and we have to ensure that we don't let a sense 
of security that we have not had an attack or a major terrorist 
event in our country since September 11th let us lower our 
guard. We have to be ready to ensure that we never let the 
country down.
    Those who wish us harm have not gone away. The threats 
still exist, and we have to be prepared. They only have to be 
lucky once; we have to be on guard 24 hours a day, 7 days a 
week to ensure that it never happens. We will keep the momentum 
going. We will remain alert. This mission is critically 
important to us, because it is to prepare for, to defend 
against, and to provide recovery for your families, your 
communities, our families and our nation.
    Mr. Chairman, thank you very much for the opportunity to be 
here. I look forward to a number of questions this morning.
    Thank you, sir.
    [The prepared statement of General Renuart can be found in 
the Appendix on page 79.]
    The Chairman. Thank you, General.
    General James N. Mattis, United States Marine Corps.

STATEMENT OF GEN. JAMES N. MATTIS, USMC, COMMANDER, U.S. JOINT 
FORCES COMMAND AND SUPREME ALLIED COMMANDER TRANSFORMATION FOR 
                              NATO

    General Mattis. Chairman Skelton, Congressman McHugh, 
members of the committee, thank you for the opportunity to 
testify and to update you on Joint Forces Command. I request my 
written statement be accepted for the record, and I will speak 
for just a couple moments, Mr. Chairman, and leave most of the 
time for questions.
    As you know, sir, ladies and gentlemen, the command's 
primary missions have both joint and coalition, current and 
future aspects. We support the current military operations by 
providing combat-ready forces to combatant commanders, and you 
are seeing now the reduced force levels in Iraq and the 
increase in Afghanistan. And that is well underway.
    We are also preparing for future conflicts, thinking ahead 
so that we are not caught flat-footed in the future. As you 
know, we are co-located with the North Atlantic Treaty 
Organization's (NATO) Allied Command Transformation, which I 
also command. And that brings in a central coalition focus to 
Joint Forces Command.
    We recognize that we can never predict the future 
precisely, and we must expect to be surprised in matters of 
national security, but we must plan so that surprise is 
minimized and it is not lethal. We purposely set out to create 
a shock absorber in our force to withstand the shocks that we 
know will come.
    To this end, we have provided the committee with copies of 
the Joint Operating Environment, or what we call the JOE, and 
the Capstone Concept for Joint Operations, the CCJO.
    The JOE, the Joint Operating Environment, is our analysis, 
and it identifies the problem as best we can discern it about 
the future, a future of persistent conflict, of hybrid enemy 
threats, global instability, increasing access to weapons of 
mass destruction, the rise of regional state and non-state 
actors, and the unpredictability of security threats.
    The Capstone Concept is Admiral Mullen's vision for how the 
joint force will operate in the future. That is our proposed 
solution to the problem statement presented in the JOE, and it 
guides our force experimentation and, of course, guides our 
force development.
    One thing is clear: We must make irregular warfare a core 
competency, and this is Joint Forces Command's top priority 
right now. By using the lessons learned from Iraq, Afghanistan, 
the second Lebanon war, and applying them to our efforts, we 
are going to do this.
    At the same time, we must have balance, as Secretary Gates 
has clearly articulated. And as we institutionalize irregular 
warfare capability, we must maintain our nuclear and 
conventional superiority, which brings great benefit to the 
international community.
    And we also have to bring together this whole-of-government 
approach that we have gotten great support from this committee 
and other committees on, because it is going to be vital to 
maintaining the nation's security in the future when military 
means alone are not sufficient.
    I would like to stop at this point, Mr. Chairman, and leave 
the rest of the time for questions. Thank you.
    [The prepared statement of General Mattis can be found in 
the Appendix on page 112.]
    The Chairman. Thank you very much.
    General William E. Ward, known as Kip Ward. General.

STATEMENT OF GEN. WILLIAM E. ``KIP'' WARD, USA, COMMANDER, U.S. 
                         AFRICA COMMAND

    General Ward. Thank you, Chairman Skelton.
    Mr. McHugh, distinguished members of the committee, I 
appreciate the opportunity to provide this overview.
    With me today are Ms. Nory Fleffner from Department of 
Commerce and Mr. Jerry Lanier from the Department of State. And 
I am also honored to appear alongside my distinguished 
colleagues here.
    Last year, we discussed the plan to establish a 
headquarters. Today, United States Africa Command is executing 
our mission of conducting sustained security engagement through 
military-to-military programs and military-sponsored activities 
to promote a stable and secure African environment.
    We work in concert with other U.S. government agencies and 
international partners to ensure that our activities are 
harmonized. Our strategy is based on military-to-military 
efforts to enhance the security capability of our African 
partners.
    In many engagements with African leaders during my time as 
commander of United States Africa Command and previously as 
deputy commander, U.S. European Command, the consistent message 
they gave me is that, for their intent, for America--for 
African nations to provide for their own security. Most welcome 
our assistance in reaching their goals for security forces that 
are legitimate and professional, have the will and means to 
dissuade, deter and defeat transnational threats, perform with 
integrity, and increasingly able to support international peace 
efforts.
    We work as a part of the overall United States government 
effort. We work closely with the Department of State, the 
chiefs of mission and country teams, the U.S. Agency for 
International Development, the Departments of Treasury, 
Commerce, Homeland Security, Agriculture, and others doing work 
on the continent. And like Secretary Gates and Admiral Mullen, 
I fully support enhancements to the capabilities of our 
interagency partners.
    Similarly, we reach out to international partners, 
including Europeans, international organizations, 
nongovernmental organizations, private enterprise, and 
academia. Their perspectives on the situation in Africa are 
very valuable.
    U.S. Africa Command is involved in military training, 
education, sustainment, and logistics support, amongst other 
activities, throughout our area of responsibility. The Combined 
Joint Task Force-Horn of Africa, headquartered in Djibouti, 
conducts training, education, and civil military assistance 
that helps prevent conflict and promote regional cooperation 
among nations of Eastern Africa.
    Operation Enduring Freedom-Trans Sahara is a military 
component of the Department of State's counterterrorism 
partnership with North and West African nations. Africa 
Endeavor is an annual communications interoperability exercise 
that this year will include 23 African nations.
    We support the State Department's Africa Contingency 
Operations Training and Assistance Program that roughly trains 
20 battalions of peacekeepers per year. The peacekeepers have 
been deployed on United Nations and African Union missions 
across the continent. Recently, we helped the Rwandans deploy 
some of their heavy equipment to the United Nations (U.N.) 
mission in Darfur.
    Continuing deployments of the Africa Partnership Station 
provide training to the navies and coast guards of maritime 
nations in the Gulf of Guinea and in Eastern Africa, helping 
them better secure their own territorial waters.
    Given the lack of infrastructure within Africa and the 
island nations, our sustainment infrastructure, forward 
operating sites, and en route infrastructure are vital. I 
endorse upgrade projects supporting these key infrastructure 
nodes.
    The enduring presence at Camp Lemonier in Djibouti makes 
possible our engagement in East Africa and other parts of the 
continent and supports our U.S. strategic goals in that area of 
the world.
    It is, indeed, my honor to serve with the uniformed and 
civilian men and women of the Department of Defense, as well as 
our interagency teammates, who are making a difference on the 
continent every day. Their dedicated efforts are a testament to 
the spirit and determination of the American people and our 
commitment to contributing to the well-being and security of 
our nation and the people of Africa.
    Again, thank you for this opportunity. Thank you for your 
support. And I stand ready to participate in the hearing.
    [The prepared statement of General Ward can be found in the 
Appendix on page 135.]
    The Chairman. Thank you very much, General Ward.
    General Mattis, you said that irregular warfare should 
become a core competency for our military. History tells us 
that a country in particular, our country, prepares for the 
last war. How assured are you that irregular warfare will be 
with us in future conflicts?
    General Mattis. Mr. Chairman, I am absolutely certain that 
irregular warfare will be with us in future conflicts. We need 
to only look back to last summer's Russian incursion into 
Georgia, where we saw many irregular aspects in that war. Their 
combat units even had irregular forces in front of them as they 
went into the breakaway republics.
    I think, too, that our study of the second Lebanon war 
shows how this hybrid threat in--it is being watched all around 
the world. And they recognize they cannot take us on at 15,000 
feet right now; they cannot take us on, on the high seas; they 
don't want to take on the U.S. Army in open desert, mechanized 
warfare.
    But there is an area where we are not superior. And we have 
seen the enemy play to those positions.
    I think that the paradox of war is that America at this 
point in history cannot abrogate any aspect of the conflict 
spectrum. By that, I mean the enemy will gravitate to the area 
that they perceive to be our weakness, so we cannot give up 
conventional capability. We cannot give up nuclear superiority. 
But we must develop irregular, if we want to checkmate the 
enemy.
    It is a balanced approach, as I think Secretary Gates has 
articulated very well, sir.
    The Chairman. Thank you.
    Let me ask both Admiral Stavridis and General Renuart about 
Mexico. There is a great deal of concern in and out of the news 
media about that country and the drug-related violence that is 
there. Number one, describe how serious it is through each of 
your eyes. And, number two, what can America do to help?
    General Renuart. Well, Mr. Chairman, I think the media has 
given us many examples of how difficult that challenge is for 
the government of Mexico. President Calderon is courageously 
leading an effort. He has asked his military to play a 
principal role in that. And they are doing so.
    And I would use as an example the presence of thousands of 
military into Juarez, the city that we have seen so many of the 
murders recorded over the last year and certainly in these last 
couple months. That presence has made a difference. We began to 
see the violence settle, and I think that is an indicator of 
the seriousness that President Calderon takes with respect to 
action here.
    In terms of the drug challenges, Admiral Stavridis 
mentioned in his opening comments the challenge of the supply 
side. He leads--or hosts in his headquarters Joint Interagency 
Task Force (JIATF) South. I say in his headquarters, in his 
organization. They are located in Key West. That is an 
interagency process to get at the supply side.
    We participate directly with his staff. The Mexican 
government also participates directly with his staff.
    So I think the opportunity for us to share common operating 
pictures, share intelligence, share information not only 
between our headquarters, but with our Mexican friends is 
improving every day.
    Finally, I would say that there certainly is the potential, 
as we have seen in many reports, for some of that violence to 
spill over. There is a relationship between organized gangs in 
the United States and the drug cartels in Mexico.
    Our role in DOD is a small one, but it is to support law 
enforcement as they might need that along the border. I think 
the problem is real. Mexico is engaged. The United States is 
actively trying to support and assist Mexico in any way that 
might be helpful. And we have a very good relationship with the 
Mexican military in that regard.
    Jim.
    Admiral Stavridis. Sir, I would echo what General Renuart 
said. I would add, as I mentioned in my opening statement, I 
think there is a demand side component to this. If we ask what 
we can do to help Mexico, we could work on anything that 
reduces demand here in the United States, not really our lane 
in the Department of Defense, but I think we are mentioning the 
context.
    Secondly, sir, I would enlarge Gene's comments to include 
Central America, Haiti, and the Dominican Republic. The Merida 
Initiative, which I support--I know Gene supports, as well--
looks at all of those regions as a whole.
    In the end, this is a supply chain. We have to understand 
it, we have to reverse-engineer it, and we have to help kill 
it. Doing so will require international partners, as well as 
our interagency work together.
    Thank you.
    The Chairman. General Ward, in your opinion, would you 
describe for us America's national security interests in what 
you do in the Africa Command on the African continent, please?
    General Ward. Thank you, Chairman.
    The continent of Africa is an immense geographical domain, 
as well as huge water space along its borders and its 
territorial waters. Resources, population, globalization, 
stability all very firmly point to that part of the world being 
integrally linked to the security, as well as the continued 
development of our country.
    A stable continent of Africa with a population approaching 
9 million, growing at a rate of 2.4 percent a year, expected to 
double by 2050, if left unchecked with the issues of illegal 
immigration, trafficking of various commodities, from weapons 
to drugs to people, undeveloped so that immigration becomes 
issues for not just the nations of Africa, but Europe, as well 
as America, having today programs in effect that assist those 
nations to provide for their own security that will, in fact, 
enable development, enable the growth of effective institutions 
of government, clearly in our national interest in today's 
globalized society.
    Nothing goes on in a part of the world, clearly the size, 
importance of Africa, that would not have an ultimate effect on 
us, our security, and our well-being.
    The Chairman. Does the activity of the United Nations help 
in regard to this? Or is it a paper tiger?
    General Ward. Sir, I think the United Nations and the role 
it plays in coalescing nations and reaching the sort of 
consensus that is important to move forward with these 
sovereign nations is an instrumental activity.
    I think we should look to ways to buttress those 
activities, because I think, in the end, it is that consensus, 
it is that degree of support that is, in fact, garnered by the 
world community that can be applied, that is what we need.
    And so I would say that the United Nations has a role, as 
do the continental organizations there in Africa. The African 
Union, as it attempts to get its feet under itself, moving 
ahead in the areas of stability, as well as development, 
translates also to the regional communities there on the 
continent of Africa that are now five in number, as they also 
attempt to move ahead.
    Those activities that would coalesce, build, combine 
activity sets to address common shared problems I think can 
contribute to addressing those challenges.
    Admiral Stavridis. Mr. Chairman, can I just add, from a 
SOUTHCOM perspective, on the United Nations question? The U.N. 
is doing a very good job in Haiti. The peacekeeping force there 
is 7,000 U.N. peacekeepers, 2,000 U.N. police, very, very small 
U.S. presence. They have done a very good job over the last 
three years in a security proposition there.
    Sixty percent of those peacekeepers come from other nations 
in the Americas. So it is an example of what General Ward's 
talking about, that there is goodness in the United Nations' 
efforts.
    The Chairman. Thank you very much.
    Thank you, General Ward.
    Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman.
    General Renuart, I want to go back to you for a moment. As 
you heard in my opening comments, I greatly share the deep 
concerns that the chairman and many others have with respect to 
the drug situation in Mexico. Reports I have seen, more than 
6,000 killed in those cartel wars. That is a pretty stunning 
figure in one year, when you consider the loss of those brave 
American lives in the now going on six years in Iraq, for 
example.
    But nevertheless, I think we have to keep reality in 
context. I have seen reports in recent days by organizations 
who claim they track these kinds of things who have listed 
Mexico as a potential failed state, along with Pakistan and 
such.
    How close might Mexico be or not be to being a failed 
state? How deep a concern do you have in that regard?
    General Renuart. Congressman, I certainly am not the expert 
at defining a failed state. I think there are certain 
characteristics, however, that, I guess I would say, Mexico 
does not exhibit.
    For example, they continue to have a democratically elected 
government, and they are actively taking on this problem so 
that the core of government does not seem to be jeopardized, if 
you will.
    Certainly, they have a strong trading relationship with the 
United States. They are our third-largest trading partner. That 
relationship continues, and it is important to both nations.
    The Mexican natural resources are significant. Certainly, 
their oil industry continues to help keep the government moving 
strongly.
    The economic decline that many of our nations have all 
suffered is not as significant at this point in Mexico. So many 
of the indicators of a very vibrant and active state continue.
    I think it is certainly a challenge for the law enforcement 
aspect of the government. The drug cartels are certainly 
involved in a great deal of violence. Much of the violent 
deaths that you have talked about have been cartel-on-cartel 
violence. And while it should not replace or eliminate our 
concern, it is an indicator that the cartels are fighting each 
other for turf and for, if you will, market share.
    So I think President Calderon understands that clearly. He 
has engaged aggressively. He is in the process of re-vetting 
his police forces. We have seen successes in places like 
Juarez, where he has put federal troops on the ground.
    And I think, in our small role, we support the State 
Department and their efforts with the government. Certainly, 
the Merida Initiative is a huge, huge demonstration of American 
willingness to work with our Mexican friends to allow them to 
be successful in this effort. We need to continue that kind of 
support.
    Our role is a direct military-to-military relationship with 
the Mexican army and air force and navy, and we do that on a 
routine basis. So I am comfortable that this country is really 
working hard to deal with the challenge.
    Mr. McHugh. Thank you, sir.
    Admiral, you mentioned the variety of challenges in your 
area of responsibility (AOR). And clearly the drug component of 
that is not insignificant. But I want to talk a bit about 
Venezuela.
    I and many others have been deeply concerned about the 
reported arm purchases that Hugo Chavez has entered into, 
particularly with the Russians, reportedly 100,000 of the 
latest-generation AK-47, Russian fighter jets, et cetera, et 
cetera.
    And when you couple those with recent reports of both 
Venezuela and apparently Cuba offering to bed down Russian 
long-range strategic bombers and talks of Hezbollah fundraising 
in Caracas and elsewhere, we wonder what to make of this very 
murky soup.
    I wonder if you could just put your own perspective on the 
national security threats that Hugo Chavez's arms purchases, 
coupled with his seeming friendship in places like Iran and the 
support of Hezbollah, or certainly the blind eye towards 
Hezbollah, might mean for this committee and for your AOR?
    Admiral Stavridis. Sir, thank you.
    Whenever I speak of Venezuela, I like to begin by pointing 
out that the United States and Venezuela have enjoyed an 
extremely good relationship for about 150 years. Over the 
recent past, there has been some political disagreement between 
the two countries, and to some degree that is the nature of 
democracy and in all the democracies in the Americas today, 
there is only one dictatorship, and that is in Cuba.
    So every other country is a democracy. And democracies have 
a tendency to disagree with each other about political 
direction, in many cases.
    In terms of a national security threat, I do not believe 
Venezuela poses a national security threat to the United 
States. You are absolutely correct: They have bought about $5 
billion in weapons from the Russians over the last four years. 
They have contracts for at least $20 billion more high-
performance jets, attack helicopters, AK-103s, the new 
generation of the AK-47, and so forth.
    I don't believe that they, however, even with all of that 
armament, pose a significant threat, because I don't see the 
commensurate investment in training, in people, in building 
capability to really employ those weapons in a way that would 
be a threat to the United States of America.
    Mr. McHugh. How about the--if not the active support, 
certainly the forbearance of fundraising for terrorists, listed 
act organizations like Hezbollah. Is that at a high level or--
--
    Admiral Stavridis. Well, I am concerned throughout the 
region of the activities of Hezbollah. And that really runs 
from the Southern Cone of South America to the Andean ridge to 
the Caribbean coast. We see Hezbollah acting throughout the 
region in proselytizing, fundraising, involved in the drug 
trade.
    There is a fair amount to be concerned about with 
Hezbollah. And I would like to provide that for the record and 
give you some specifics.
    Mr. McHugh. Yes. I would appreciate that.
    And, Mr. Chairman, I am going to yield back, but I would 
say, for the record, this is an area that I know leaders, as we 
have here today, are focused on and concerned about, but I 
think it would behoove all of us on this committee if we had 
the opportunity to delve into that a bit more deeply, perhaps 
in closed session.
    But it is an important development that needs our urgent 
attention. And with that, I would yield back and thank you, Mr. 
Chairman.
    The Chairman. Well, thank you, Mr. McHugh.
    Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    And I want to thank all these gentlemen for being here.
    Very quickly, General Mattis, your quote was something to 
the point of, ``The enemy will gravitate to our weaknesses.'' 
Would you say it is a fair assessment that the enemy gravitated 
to Improvised Explosive Devices (IEDs) and underbody explosions 
to flat-bottom Humvees in Iraq, as one example of that?
    General Mattis. Yes, sir.
    Mr. Taylor. And, therefore, again, using the media, using 
computers, told the whole world that we have a vulnerability to 
attack from underneath, from flat-bottom vehicles?
    General Mattis. Sir, the attacks make even our heaviest 
tanks vulnerable. I would not confine it to the flat-bottoms. 
That is one aspect of it, but, in fact, war is a constant game 
of give-and-take. You know this, sir. I think as we adapt to 
the flat-bottom attack, they will adapt, and it is just the 
normal heave-and-ho of war.
    Mr. Taylor. Again, using your quote, using our experience 
in Iraq, I would certainly hope that you would weigh in, as we 
are making the decision on the Expeditionary Fighting Vehicle, 
that we, before we build it, make it resistant to mines, and 
not after the fact. And that is a very real debate going on 
right now, and I would hope, using your quote, that, you know, 
we could use that to our advantage.
    General Renuart, I happen to live in coastal Mississippi. 
NORTHCOM was nowhere to be found after Katrina. That is water 
under the bridge.
    But let's take a similar circumstance. And, God forbid, I 
don't want anything to happen to Pennsylvania, but I am only 
using them as an example, because a large percentage of their 
Guard is in Iraq right now.
    Two simultaneously horrible events happen in Pennsylvania, 
one in Pittsburgh, one in Philadelphia. They don't have 
hospitals; they don't have electricity; they don't have food 
distribution. What are the resources at your disposal now that 
we have learned the hard way--let's start with Philadelphia. 
Could--are you in a position to contact the Chief of Naval 
Operations (CNO) and say, ``I want an amphibious assault ship 
and that floating hospital as close to Philadelphia as you can 
get right now''?
    General Renuart. Congressman, I will tell you a short 
answer: Absolutely, yes.
    Mr. Taylor. You have--okay, so you are the guy?
    General Renuart. I am the guy. And, in fact, today, I have 
an amphibious ready group that is available to me. It is--we 
keep one on the East Coast, one on the West. They are doing 
other training missions, but they are identified for homeland 
security and homeland defense response, should that be 
required. And I have the authority from the secretary to ask 
and move those.
    Similarly, the hospital ship--although she will be headed 
to Jim's world here in the south to do some great humanitarian 
work, but if she is available, absolutely. But I will also tell 
you----
    Mr. Taylor. If I may, sir----
    General Renuart. Yes.
    Mr. Taylor. Okay. One of the Seabee battalions is home. We 
won't say which one. You are in a position to say, ``I need you 
to go to Pittsburgh and start building places for people to 
berth in''?
    General Renuart. Again, Congressman, absolutely.
    Mr. Taylor. And, General, the reason I am saying this is, I 
think yours is the most--we have the least understanding of 
your command. And I want to give you this opportunity to clear 
that up because, you know, again, I have sat in this room for a 
long time. I am convinced something bad is going to happen on 
American soil. As good a job as you do, somebody is going to 
get through.
    And I think the point that we need--the Americans need to 
know is that you are the guy who is going to respond.
    General Renuart. Congressman, I appreciate that. And I, 
too, share your view that we have to be prepared, because 
something untoward will happen, whether it is manmade or 
natural disaster. And we are the DOD command. We partner, as 
you know, with the National Guard. We are----
    Mr. Taylor. Let's get a clarification. What is your 
authority with the Guard?
    General Renuart. Congressman, the first authority with the 
Guard, as you know, is with--the governor will order those 
forces it needs into place. We have twice a day joint ops and 
planning meetings with the National Guard Bureau so that we 
integrate responses so that we don't duplicate and we 
complement each other in each event.
    But certainly, in this case, the governor of Pennsylvania 
will want to have and should have access to those national 
guardsmen. As you said, many are deployed. Under the Emergency 
Management Assistance Compact, additional guardsmen can come 
from other states.
    We will also be in a position to support. And we do that in 
conjunction with our friends in Federal Emergency Management 
Agency (FEMA). And as you mentioned, an event occurs in one of 
those large cities that may be nuclear or biological or 
chemical, we have a--today a fully equipped, fully trained, 
4,000-plus-person consequence management and response force. It 
sits on a very short response notice.
    I have coordinated with Transportation Command for the lift 
it takes to move that. And if an event occurs in Philadelphia 
or in Pittsburgh, and that capability is needed for the 
particular unique nature of the circumstance, I can move them 
and the Secretary of Defense is fully supportive of moving 
them, at the direction of the President, in there and would be 
in within 48 hours.
    Mr. Taylor. Okay. Thank you, Mr. Chairman.
    Thank you, General.
    General Renuart. Thank you, sir.
    The Chairman. Mr. Bartlett, please.
    Mr. Bartlett. Thank you very much.
    General Mattis, I would like to join Chairman Taylor in his 
appeal to you that you take a look at the Expeditionary 
Fighting Vehicle. There are options that would provide 
enormously more protection for our troops there, and I would be 
happy to join you and Chairman Taylor in a discussion of this 
problem and these options.
    Admiral, I was impressed that twice you mentioned the need 
for reduction of demand on drugs. You mentioned it in your oral 
testimony, and you mentioned it in the answer to one of the 
questions.
    What we are doing relative to drugs kind of fits Albert 
Einstein's definition of insanity, doing the same thing over 
and over again and hoping for a different result. We are really 
quite good at eradicating drugs and interdicting them, but it 
has had no effect on the availability of these drugs in our 
cities.
    As a matter of fact, in Philadelphia--I am sorry, in 
Baltimore, in my state, in Philadelphia, too, the quantity and 
quality of drugs was such that we have people dying from 
overdosing because the drugs no longer had to be cut for street 
sale.
    So, obviously, the roughly $3 billion that we spend a year 
in Colombia in eradication and interdiction has no effect on 
the availability of drugs in our country, and that is, of 
course, the reason we do that, to reduce drug use in our 
country.
    Now, I applaud, sir, your concern that we need to spend 
more effort on education, on reducing demand. If nobody bought 
drugs, nobody would be selling drugs, would they? And I think 
we need to have enormously more attention on reducing the 
demand for drugs, because obviously we are not going to reduce 
the availability of drugs. We have tried that over and over 
again, and it is not working. We just have to own up to that.
    General Mattis, you mentioned that the enemy gravitates to 
our weakness, and Chairman Taylor mentioned the potential 
weakness of the Expeditionary Fighting Vehicle. There is 
another weakness that really concerns me, and it is a growing 
weakness.
    We continue to field weapons systems that have little or no 
Electromagnetic Pulse (EMP) protection. And every one of our 
potential enemies in their open literature and in their war 
games mention the use of EMP as an early event in any conflict 
with us.
    The EMP Commission interviewed Russian generals who told us 
that the Soviets had developed--and they obviously have--EMP 
weapons, enhanced weapons, that would produce 200 kilovolts per 
meter at the center. That is 100 kilovolts per meter at the 
margins. If that is true, sir, we never have built or tested 
anything to that level of EMP protection.
    Why do we keep fielding these weapons systems that will not 
be available to us when we really need them? We don't need them 
for wars like Iraq and Afghanistan. We will really need them 
against a peer, and they won't be useful to us because the 
first thing he will do is an EMP laydown.
    Why do we keep investing billions of dollars in these 
systems that have little or no EMP protection, therefore, 
little or no utility in a war with one of our peers? Why do we 
keep doing this?
    General Mattis. I cannot give you a good answer, sir. I can 
speculate. I think, for some period of time, there was a hope 
that this nuclear issue was going to go away. I think we saw 
some turning away from keeping focused on it. I will add that 
any concern about that in the recent past has been taken care 
of by the U.S. forces, but not when it comes to the 
acquisition.
    I don't have a good answer for you other than to say that I 
believe that now thinking the unthinkable is no longer off-
limits. And we will work it. I don't have a specifically 
satisfactory answer for you, sir.
    Mr. Bartlett. Several years ago, I called my friend, Tom 
Clancy, who has done several events for me. He had an EMP 
scenario in one of his books, and I knew he did very good 
research, and I asked him about EMP. He said, ``If you read my 
book, you know all I know.''
    Let me refer you to--in his words, to the smartest man 
hired by the U.S. government, and that was a Dr. Lowell Wood in 
Lawrence Livermore in California. In those days, we didn't have 
cell phones, so I paged him. And I thought he was in 
California. An hour later, he was sitting at my desk in my 
office because he was here in Washington.
    Lowell says that the reason that we don't address this is 
because it is just too hard. We don't want to face it, and so 
we ignore it. Do you think that is true?
    General Mattis. Sir, I will tell you, the physics of the 
problem probably make going to the moon look easy, so I think 
he has probably a good point. And when you talk about hard, you 
are talking about enormous cost. And in some cases--in, I 
think, most cases, we have not even done the Research & 
Development (R&D) that allows us to look at acquiring systems 
that have the capability--in other words, we still have to 
figure out how to do it.
    But we are going to have to get on with it, sir. Again, I 
will not defend where we are at right now. I cannot.
    Mr. Bartlett. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    And now we call on Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being here today.
    General Ward, I am going to address my time with you. And, 
first, I want to just make a comment. I had to step out while 
you did your oral statement, but in your written statement, you 
referred to--have a brief discussion about the over-fishing off 
the coast of Africa.
    And, you know, I applaud you for including that in a 
national security discussion about what is going on, because 
poverty and hunger and lack of economic vitality are huge 
national security threats. And I think probably most of us 
don't realize what the potential degradation of the fish off 
the coast of Africa means for a lot of nations and a lot of 
people and for stability in Africa.
    On page four of your written statement, you say the 
following: ``The greatest security threats facing Africa 
include enduring conflicts, illicit trafficking, territorial 
disputes, rebel insurgencies, violent extremists, piracy, and 
illegal immigration.''
    The first one on that list was enduring conflicts. And 
would you describe for me, please, what you see the role of 
AFRICOM is in these enduring conflicts?
    And I want to mention two specifically as examples. We have 
this ongoing dispute between Eritrea and Ethiopia on that 
border, that--while there has not been active military 
engagement for some time now of any major amount, none of us 
would be surprised if it were to flare up again at some point. 
It is an unresolved border and an unresolved war.
    The second one is the several--well, a couple decades long 
now dispute between the Polisario that are based on the 
Moroccan-Algerian border and the kingdom of Morocco.
    When you look at those two threats, what you have referred 
to as enduring conflicts, what do you see as the role of 
AFRICOM in disputes like those?
    General Ward. Thank you, sir.
    First, the acknowledgement of the threats to the 
environment, I appreciate your noting that. To be sure, these 
threats to those resources that could be made available to a 
people of a nation to increase their lot, to increase their 
well-being, critical, very, very important. And when it doesn't 
occur where they are, then they will seek it elsewhere.
    With respect to the enduring conflicts, they range, as you 
have noted--they are the borders of Eritrea, Djibouti, the 
borders in North Africa, with respect to the Western Sahara, 
also the central part of the continent, there in the Congo.
    As it comes to the role that we play, the command, the 
military role, you know, where there are political agreement 
that talk to, one, creating stability, that talk to, two, the 
need to create a force, a security force that would, in fact, 
help the legitimate government of a nation provide that control 
or that stability, where there is a lack of training, a lack of 
equipment, a lack of interoperability, a lack of working 
effectively to some degree with its neighbors, where, again, 
there is the political will to do so, and a determination is 
made that we, in fact, can play a role in increasing the 
capacity to address those deficiencies, that is where we as a 
command, a military command come in to take a role to increase 
the capacity of those nations to do such.
    For example, as the situation in the Congo was occurring 
and interoperability deficiencies were noted, our ability to 
work with those nations--Uganda, Rwanda, the Democratic 
Republic of the Congo, Central African Republic to a degree--to 
help information-sharing, to help with equipment 
interoperability, providing sometimes needed logistics support 
and enhancement, to cause those governments to be able to have 
a better sense of what goes on inside their borders against 
insurgencies or the rebel factions, and then be able to work in 
some degree of commonality to address them.
    But, again, those actions that we take, sir, come on the 
heels of a policy decision having been taken by the nations 
themselves, obviously, our national policy direction that 
supports the activities that we would, in fact, do to help in 
those instances.
    Dr. Snyder. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    General Mattis, as someone who argued for the creation of 
Joint Forces Command 10, 12 years ago, I have become concerned 
over time that the command--that the focus on the future, which 
was part of the reason to create that command, has faded over 
time, and I recently read in a book by Dr. Andrew Krepinevich, 
where he said that, unfortunately, Joint Forces, established to 
identify emerging threats and support for the military's 
transformation to address them, has progressively moved away 
from that mission since Millennium Challenge 2002.
    And, as you know, Millennium Challenge 2002 was a war game 
that was stopped in the middle because the good guys were 
losing. And they had to rearrange the deck in order to prevent 
an embarrassment.
    Dr. Krepinevich makes three suggestions to help refocus 
Joint Forces Command on the future. And I would like to get 
your reaction to them.
    One is, he thinks your--the tenure for your position needs 
to be lengthened, because nobody can occupy that job in the 
normal rotation and make the real difference with that 
futuristic orientation that you really need, because sometimes 
that goes countercultural to the services.
    Secondly, he says Joint Forces ought to have a seat on a 
Joint Requirements Oversight Council (JROC). And, thirdly, he 
says Joint Forces ought to have a seat on the defense 
acquisition board so that you are there with a voice when 
acquisition decisions are made.
    What is your reaction to those three suggestions?
    General Mattis. Thank you, sir.
    In terms of our future focus, it is a balancing act. I will 
be the first to admit it. However, I will tell you that the 
joint training that goes on right now is critical to making the 
Goldwater-Nichols--the spirit of Goldwater-Nichols into 
reality.
    The providing of forces--of prepared joint forces going out 
is so smooth that I spend very little of my time on it. There 
is a small section of the command that, when the Secretary of 
Defense approves our request for forces from one of the 
geographic commanders, it goes very quickly.
    Not a lot of distraction there, is my point. Most of our 
effort, most of my effort with Joint Forces Command goes into 
the future.
    In regards to lengthening the commander's tour, I think 
that there is a--if I remember right--around 50 percent of the 
total command, 27 percent of the command has got government 
contract or contractors, civilian contractors. They provide 
continuity. There is also a fair amount of continuity from 
government civilians.
    So although the commander's tenure is one consideration--
and I wouldn't necessarily refute or come up with an argument 
against it--I don't think it is as bad as thinking that 
everything stops when a commander comes and goes. Some of us 
may think the world begins and ends with us, but I think the 
reality is, the command functions quite well.
    We do have to get some institutionalization of this focus 
on the future that perhaps disappeared under the urgency of the 
active operations overseas. I think we have that back, and we 
are going in the right direction, and we are open to any kind 
of assessment that wants to come down and look at us on that.
    On the JROC seat, I will tell you right now, sir, I can 
walk into the JROC any time, any combatant commander can, and I 
exercise that when necessary, but I do not feel inhibited. 
Plus, I can always do an end run on them, to put it bluntly, 
and walk into the Deputy Secretary of Defense's office, where I 
have a very close working relationship.
    So I am not inhibited by not having a formal seat there. I 
can be in any meeting, and I can work with the deputy secretary 
and the vice chairman, if there is something I think is going 
off the rail.
    As far as the defense acquisition board, there is an awful 
lot of folks who get involved in acquisition today, almost to 
the point that we have paralyzed the process. If I can bring 
something--bring an advantage to it, I am more than willing to 
do so.
    Generally speaking, I would bring one more voice that is 
saying something that is already being considered, but if I 
think it is not being considered, I can always insert myself 
there.
    I am not, as some of you know, I am not shy about inserting 
myself where I think I need to be, although there are some 
points that have been made by Mr. Bartlett and Mr. Taylor that 
I recognize, too, that in the normal scheme of things--and this 
is what you are talking about--in the normal scheme of things, 
I may not be in the room.
    But if it comes down to command and control, I am in the 
room. That is my job. And on the other things, I somewhat defer 
to those who have the title 10 responsibilities, because I 
eventually--I hope that addresses your question, sir.
    Mr. Thornberry. It is helpful. And I am very grateful you 
are where you are, because I think you have a real chance to 
focus the command more where it needs to be focused. And I 
would hope to visit with you more about that.
    Just briefly, Admiral Stavridis, you talk about your mantra 
being joint, international, interagency, public, private. One 
of the suggestions is, as we grapple with this interagency 
issue, is that we ought to use the structure of the combatant 
commands to be the structure for the U.S. government in 
bringing all of these different agencies and instruments of 
power together.
    What--just briefly, what lessons have you learned in your 
command that might be useful as all of us try to figure out how 
to get all of the tools in the toolbox available for us in all 
parts of the world?
    Admiral Stavridis. Well, first and foremost, I think it is 
important that we don't militarize our foreign policy. That 
would be a tremendous mistake.
    State Department must do diplomacy. Agency for 
International Development (AID) must do development. Defense 
must do defense. But the trick is, how do we do all of that in 
a way that we are mutually supportive?
    And in general, in my region, I find that it is very much 
State in the lead on defense, AID in the lead on development, 
and where we can try and be helpful from defense, we try to be.
    I believe that it is vitally important that everything we 
do ought to go through a filter that says: Have we approached 
this in an international way? Have we avoided unilateralism? 
Have we taken the transnational approach?
    Because so many of the challenges we face in this region, 
in the Americas, in this home we share together are, in fact, 
transnational.
    Secondly, the interagency has to work together. I think we 
have come a fair way at doing that over the last five years, 
but I think we have a distance to go.
    I think there is a role for the private sector in all of 
this, and we are exploring how linkages can be established 
between government, private sector, in the defense arena, for 
example.
    The other part of the whole equation that is so important 
is strategic communications. It is communicating these ideas in 
ways--particularly in South America and the Caribbean, Central 
America, in ways that show respect for sovereignty, take an 
approach of equality with the other nations in the region, and 
don't in any sense come at the problem with a sense that we 
have all the answers, because we don't.
    So however we structure our organizations for national 
security in the future, those would be the points I would 
submit are the valuable ones that we have learned at Southern 
Command. I will leave it to others to decide what the best 
structure is.
    The Chairman. I thank the gentleman.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you to all of you for being here and certainly 
for your extraordinary service to our country.
    This really follows up on the question that you just 
answered, Admiral, and perhaps the rest of you would like to 
expand. The House Foreign Affairs Committee is holding a 
hearing today, as you may know, which is exploring the 
Department of Defense's role in foreign assistance.
    And there are concerns, of course, that the military's role 
has contributed in some way to the weakening of the State 
Department, its more traditional leadership role in managing 
U.S. foreign policy.
    And, you know, a lot of what you just responded to, sir, 
and I appreciate that, I wonder if there are--there is really 
more to say in this area, because to a certain extent, you 
know, it is not clear that military activities are always 
vetted through the country team or understood.
    And how are we really on the ground getting it done? I 
understand the goals, but what more should we be doing? How 
should we focus on this in a different way?
    Admiral Stavridis. If I could quickly just add to what I 
said before, in a practical sense, we take all of the military-
to-military engagement that we do--any activity that is done in 
Southern Command is always vetted through the country team.
    And then we take our larger, what we call theater security 
cooperation plan, and we bring that here to State, to AID. We 
show it to them. We have complete transparency. We take all of 
their changes.
    You are absolutely right: What happens on the ground in a 
country has to be the responsibility of the ambassador in that 
country. And I am very confident we are taking that approach 
fully at SOUTHCOM, and we will continue to do so.
    General Renuart. Ma'am, if I could, I would like to add, 
first, echo Jim. Our numbers of countries that we deal with are 
much smaller, but certainly Canada and Mexico are partners that 
we work with very actively.
    And, again, those--you have to have diplomacy in the lead 
when you talk about the relations with foreign nations that we 
deal with each day.
    It is critical to have a partnership there because so 
much--and I will speak from my experience with Mexico--so much 
of what is done within the country is done by the military. 
That is the nature of their structure. So there is a natural 
relationship mil-to-mil that complements the ambassador's 
program in the country. And I think that is critical.
    I would like to add one twist here in the homeland, because 
we have a unique interagency process in our headquarters that 
is a little different, in that we deal with the 49 nations, 3 
territories, and the district. And so that requires a bit of a 
different private-sector and interagency approach.
    We have 45 federal agencies that have assigned senior 
individuals to our headquarters. We incorporate them into our 
ops and our plans and our intelligence and that sort of thing. 
It allows a level of partnership and in an interagency way that 
I am very pleased and proud of. It allows us to be a 
contributing partner to each of those agencies.
    So the interagency approach, the whole-of-government 
approach has got to be the best way--is the best way, has got 
to be the way of the future for us. And I think there are some 
models that can be helpful in other places.
    Thank you.
    Mrs. Davis. When you were working with our country teams, 
what role does the military necessarily play? How would you 
assess the public opinion towards the United States in your 
areas? And how do you merge some of that understanding? And 
what effect does it have on your operations?
    General Ward. I think, Mrs. Davis, two things. First, I 
certainly echo all that has been said by Admiral Stavridis and 
General Renuart. We work very closely with the country teams, 
but not just in implementing the plans, also in developing the 
plans.
    From the outset, the country teams are involved to include 
the public diplomacy aspect of those, because we rely on the 
public diplomacy section--what is inside the embassies--to help 
us assure that the effect that we want to create are understood 
by the populations with whom we are trying to serve.
    And so that relationship is absolutely critical. It is 
cradle to grave, from the beginning of a plan to its execution, 
fully including and, in fact, taking the lead from the 
embassies' action plans, insofar as how what we do supports 
that overall process there within the country.
    Mrs. Davis. If I could shift really quickly just to Mexico 
for a second, because there is a great deal of concern that 
some of the weapons being smuggled into Mexico are coming from 
the U.S. To what extent is that true and a problem? And should 
there be greater restrictions so that we can get a better 
handle on that?
    General Renuart. Well, ma'am, it is for Congress to decide 
on restrictions, but I would say that, certainly, the quantity 
of weapons that have been captured or uncovered in Mexico that 
have been used by the cartels are predominantly either U.S.-
made or trafficked through the United States dealers, not 
necessarily flowing through our borders, but there have been 
illicit dealers that have been working that.
    The experts in our law enforcement agencies really are 
working this very hard, not truly a military role to be 
involved in that, although, interestingly, we have worked with 
the military in Mexico to help share that information with our 
law enforcement folks. It is a real problem, and we have to pay 
attention to it.
    Mrs. Davis. Thank you.
    The Chairman. I thank the gentlelady.
    The gentleman from Minnesota, Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here and for your service.
    I want to continue with the discussion about Mexico, 
General Renuart, if I could for a minute.
    In the news, the President has announced that he is sending 
federal agents to the border for reinforcement. And as you have 
heard here--and I know you know very well--there is fear that 
the violence is spilling over from Ciudad Juarez and Nuevo 
Laredo and others into the United States, in both those cases 
into Texas.
    Periodically in this body, we debate and sometimes vote on 
whether or not we should be using U.S. military forces, to put 
the U.S. Army on the border. I wonder if you would address that 
very briefly to the wisdom of such a thing and--or the 
practicality of such a thing?
    General Renuart. Yes, sir, I would be happy to. I think, 
first, militarizing our border should not be our approach at 
this point. We have a number of agencies who have that role and 
responsibility. There certainly is some modest assistance that 
DOD might be able to provide, and I think we ought to be in a 
position to provide that, should it be requested.
    I do believe that there is a challenge with the--or the 
potential that violence south of the border could spill over. 
You have seen, I am sure, media reports of additional 
kidnappings or increased kidnappings in Arizona, for example.
    But the military really has the role to provide assistance 
to law enforcement. Certainly, the National Guard has some 
legal authority to assist law enforcement in their role. But as 
the President has mentioned, Secretary Napolitano has 
mentioned, Secretary Gates has mentioned, we ought not to 
immediately move towards militarization of the border, but we 
ought to look at a collaborative effort.
    And I think the planning efforts are ongoing now to come up 
with that kind of a solution.
    Mr. Kline. Thank you. And I agree wholeheartedly. We should 
not be moving to militarize the border. There are other ways 
that we ought to address that.
    And, clearly, the military can and has provided assistance. 
But the notion of putting armed infantry on the border is 
probably not a good one. And I just wanted to get that from 
you, and I am delighted to see that you concur.
    General Ward, I want to pick up on two things, if the time 
allows. One, you talk about the value of United Nations forces 
and African Union forces. And I know you can reflect back to a 
number of years ago when we were much younger in--and, in fact, 
in Africa and looking at U.N. forces hunkered down in 
Mogadishu, for example, and not venturing off the airport.
    And so I trust that either in African Union or United 
Nations forces--and I know that you are involved in the 
training of forces--I gather from your earlier answer, you are 
saying that that is not the case now or at least that those 
forces are more useful and more effective than in those long 
years past. Is that correct?
    General Ward. Thank you for that, sir. Two things. First, 
it is a function of how well-trained and equipped they are and 
that they are clearly--even today, there are variances in that 
training and that equipment. And then, thirdly--correction, 
secondly--what authorities they then have to do a mission or 
not.
    So I think it is a combination of those two factors, their 
training and equipping, and then what authorities that they 
have. When those align, then their use, their role can, in 
fact, make a difference, and there are instances where that, in 
fact, is the case.
    It is not absolute, and so therefore, I think, to the 
degree that we can be of an assist in helping to provide 
trained and equipped forces from whatever contributing nation 
that would provide forces to those formations, either United 
Nations-sponsored formations or African Union-sponsored 
formations, then we have a role, I think, in helping those 
forces be better trained and equipped--clearly authorities 
commensurate with whatever mission they are assigned as they 
are employed.
    Mr. Kline. All right. Thank you.
    I see my time is about to expire. I will yield back, Mr. 
Chairman.
    Mr. Taylor [presiding]. The chair thanks the gentleman.
    The chair recognizes the gentleman from North Carolina, Mr. 
Kissell.
    Mr. Kissell. Thank you, Mr. Chair.
    And thank you, gentlemen, for being here today.
    A couple questions real quickly. Admiral, you talked about 
we had this large joint force, 22 countries participated. 
Without naming them all, four or five of the major countries 
that we would look at as being stronger allies with us and that 
participated there?
    Admiral Stavridis. Sir, I will provide the entire list for 
the record, of course, but Brazil, Colombia, Peru, Chile, 
Panama. I could go on and on. It is literally every country 
that has a significant-sized military force in the Americas, 
with the exception of Venezuela and Cuba, obviously.
    Mr. Kissell. Okay. And I was looking for, was it the larger 
countries or was it, you know, some of the smaller nations?
    Admiral Stavridis. Sir, it is both. It is both. And I will 
just make the point, last summer, we had a Brazilian admiral 
taking command of forces on one side of the Panama Canal and a 
Chilean admiral taking command of forces on the other side of 
the canal. It was extremely gratifying to see the nations 
working together.
    Mr. Kissell. And, General Ward, along the same lines in 
Africa, the military-to-military contact we have, what are some 
of the nations of Africa that seem to be the strongest in 
working and willing to work with us?
    General Ward. Sir, I think, if we look at those nations 
that contribute forces to the peacekeeping missions, from 
Uganda to Rwanda, South Africa, Nigeria, there are several 
that, in fact, have a capability.
    They need assistance logistically predominantly to either 
deploy to one of these far-off places, to sustain themselves in 
one of those far-off places, but there is an increasing will 
that I see among many of the African nations to, in fact, do 
what many of them say they want to do, that is, provide for 
their own security.
    And so the level of nations--Burundi is another example. 
Small, out just from a very severe internal conflict, but 
realizing that it can play a role in the future and attempting 
to do so.
    So the range is quite broad, as Admiral Stavridis 
mentioned, but, again, most--many lack capacity, typically in 
logistics areas--manpower typically is not an issue. We work 
with them to help increase health situation within those 
nations, as an example, our program for HIV-AIDS to complement 
the President's Emergency Plan for AIDS Relief (PEPFAR) through 
our defense HIV-AIDS prevention program, to help them get 
enough people that can, in fact, then be trained and then to 
deploy into a peacekeeping set, though those nations are, in 
fact, numbers are there.
    Mr. Kissell. What would you say in terms of our outreach to 
the countries of Africa? What portion of Africa? Are we 
reaching half, three-quarters? How far out does that outreach 
go?
    General Ward. I think if I were to--and I will get a more 
precise number to you--but we are reaching nations throughout 
the continent, north, east, south, west, and central Africa.
    We have probably 35 nations--and I would just hazard that 
guess--of the 53 on the continent that we have active programs 
with to some degree, as we--as we work with them and the 
various either counterterror programs, programs developed in 
their transportation of their militaries, and also in just 
basic logistic support, as they participate in U.N.- or African 
Union (A.U.)-sponsored peacekeeping operations.
    Mr. Kissell. And, General Renuart, I know I haven't got 
much time left, and one of the first--I think it was the first 
hearing and being a new congressman I came to was former 
Senator Gramm gave a report on weapons of mass destruction, 
proliferation, said we weren't winning that fight, gave 
recommendations, had some predictions about what could happen 
within the borders of the United States in the next few years.
    Do you all have in any involvement in trying to implement 
the recommendations that commission made?
    General Renuart. Sir, I think--I will have to say I am not 
as familiar with the specific recommendations. However, I will 
tell you that we have taken a number of actions specifically 
regarding this challenge in the last three or four years to 
include growing and building and equipping a consequence 
management response force that can allow us to respond to a 
weapon of mass destruction.
    We have also increased our capability to help prevent loss 
of, for example, a nuclear weapon or a nuclear device. So I 
believe we are moving down the road in that direction. But if 
you have a specific area, I would be happy to mention that.
    Mr. Kissell. Well, I would say, you know, the commission 
had some specific suggestions how we could, you know, avoid 
this happening and also towards the proliferation of weapons of 
mass destruction. And I would simply that, you know, it would 
probably be good for everybody that has, you know, some time in 
this to really look at that commission's report.
    Thank you, sir.
    General Renuart. And, Mr. Kissell, I will get the report 
and provide you an answer for the record.
    Mr. Kissell. Mr. Chairman.
    The Chairman [presiding]. Mr. Wittman, please.
    Mr. Wittman. Thank you, Mr. Chairman.
    And, gentlemen, thank you for joining us today and thank 
you so much for your service to our nation.
    Admiral, in January of 2009, the Navy announced its 
decision to homeport a nuclear aircraft carrier at Mayport 
Naval Station in Florida. And Mayport's never homeported a 
nuclear-powered carrier and, based on previous Base Realignment 
and Closure (BRAC) decisions, no longer has the nearby air wing 
at Cecil Field to support carrier operations.
    And, Admiral, as the COCOM for this region, I wanted to 
know, were you consulted in this decision? And if so, when were 
you consulted? And what was your position? And if you are not, 
are you aware of anyone within Southern Command that was 
consulted to provide strategic input into this decision?
    Admiral Stavridis. Sir, as you know, it is a decision made 
by--well, a recommendation made by the Chief of Naval 
Operations, Gary Roughead, to the Secretary of the Navy. It 
goes to the Secretary of Defense. So I don't in any way 
participate in those conversations in any formal sense, no.
    Mr. Wittman. Well, as a follow up, in April 2008, the CNO 
announced the re-establishment of the Fourth Fleet in Mayport. 
And the commander of the Fourth Fleet, as you know, also serves 
as the commander of U.S. Naval Forces Southern Command, the 
Navy's component command of SOUTHCOM.
    And let me read you a recent statement from former 
Secretary of the Navy (SECNAV) Winter at the Current Strategy 
Forum in June of 2008. And he said, ``The Fourth Fleet 
demonstrates the Navy's commitment to the region by creating 
presence in support of combined training operations, 
humanitarian operations, and disaster response, and this can be 
done without using a carrier battle group.
    ``We should also remember that it is sometimes more 
effective to have a smaller combatant that can access many of 
the littoral areas where we need to go. Smaller platforms are 
also more suitable for training, as they are more compatible 
with the navies with which we will be operating. We must 
balance our present requirements with the missions and threats 
we are likely to face in the given region.''
    And my question is this: Given the fact that we know many 
of the existing facilities at Mayport--excuse me, existing 
frigates at Mayport will be retired soon and given the unique 
types of missions we encounter in the Fourth Fleet's operating 
areas, such as counterdrug operations, theater support 
cooperation, military-to-military exercises and training, do 
you agree with Secretary Winter's assessment that the Fourth 
Fleet can accomplish its objectives without a carrier battle 
group? Or do you believe that homeporting a nuclear carrier at 
Mayport is necessary to provide the right mix of assets to 
support the U.S. Fourth Fleet?
    Admiral Stavridis. Well, I am not going to address whether 
or not the Fourth Fleet--anything about homeporting, because I 
really don't have anything to do with homeporting.
    And the way it works for a COCOM, sir, is, we just go to 
the Joint Staff and we tell them what kind of ships we need. 
And where they come from is really not my concern. They could 
come from Mayport. They can come from Norfolk. They could come 
from San Diego. A lot of the ships that work for me come from 
San Diego. So, in terms of where ships are homeported, that is 
really just not in my purview.
    In terms of, what kinds of ships do we use in Southern 
Command? We are far more likely to use frigates, large-deck 
amphibs, hospital ships, innovative high-speed ships. Those are 
what we are more likely to use, but I can't rule out ever using 
any particular kind of ship. But I agree with Secretary Winter: 
It is more likely that we have used the type of ships he 
describes and I just mentioned.
    Mr. Wittman. Okay. Very good.
    And, finally, the Navy identified strategic dispersal 
considerations, consistencies with the Navy's fleet response 
plan and operational readiness as the justification for its 
decision to homeport a carrier at Mayport. In the Navy's 
decision document, the record of the decision, however, failed 
to provide any real detail on why strategic dispersal 
considerations and consistency with the Navy's fleet response 
plan and operational readiness support moving a carrier.
    Can you comment on whether moving a carrier is necessary to 
accomplish these objectives and the Navy's fleet response plan?
    Admiral Stavridis. Sir, I really can't. It is really not in 
my purview. I am a joint official. I could as equally be any 
one of these colored uniforms. I am not in the Navy chain of 
command at the moment, so I would really refer that question to 
Admiral Roughead. I will take it to Admiral Roughead, and I 
will ask him to get back to you with an answer to that 
question.
    Mr. Wittman. Very good. Thank you.
    I yield back the remainder of my time.
    The Chairman. I thank the gentleman.
    The gentleman from Pennsylvania, Mr. Murphy.
    Mr. Murphy. Mr. Chairman, thank you, Mr. Chairman. I 
appreciate it.
    Gentlemen, I joined the Army in 1993 and never had the 
opportunity to meet a four-star general, so to have four of you 
here at the same time is pretty awesome. And to spend the last 
hour-and-a-half with you has been educational.
    I want to thank you for your service to our nation. We 
really do appreciate it.
    I wanted to kind of focus my remarks on AFRICOM. So to 
General Ward, my brother is a major in the Air Force. He just 
came back from a deployment to Djibouti. And, you know, 
appreciate what you are doing in the early stages of what is 
going on with AFRICOM and the balance on your mission between, 
obviously, short-term counterterrorism operations and then 
long-term political and economic development.
    I wanted to focus and get my arms around the fact that, 
when you look at Africa as a continent and your mission, you 
know, the United States, China, Russia, Europe, and India 
combined geographically is smaller than your mission in Africa.
    And you look at the fiscal year 2008 budget for your 
operation, $350 million, which is approximately what we spend 
in Iraq per day, is there one function, you know, when you say, 
given your balance and the multiple demands on your command, is 
there one function within your budget that you need more help, 
that you need more funding, and that you think that we should 
be focusing on as a Congress and as an Armed Services 
Committee?
    General Ward. Well, Mr. Murphy. I thank you very much. And 
thank you, too, for your service.
    I wish I had an opportunity to have met you during those 
early times in the 1990s there. So I appreciate what you have 
done and appreciate where you are now, as well, sir.
    I think, you know, my command, except for the work that we 
do--and we do accomplish counterterror work, to be sure--we do 
that as a part of a global counterterror effort--my command's 
predominant role is in doing our activities to help our partner 
nations increase their capacity.
    It doesn't take a lot to do that. What it takes is 
something we call persistent and sustained engagement from the 
standpoint of our training. Our best method of doing that is 
when our nation's soldiers, sailors, airmen and Marines can 
pair up with these nations who are attempting to transform and 
do things differently.
    Given the commitment of those resources in places like 
Afghanistan, Iraq, very difficult. What we do now is work very, 
very closely with other potential sources of that type of 
support, our National Guard, as well as, as was pointed out, 
submitting requirements through the Joint Staff for forces that 
may be in some period of outside of dwell, but not actively 
employed in the fight in Iraq and Afghanistan, to cause that 
relationship to go on.
    Huge continent, so getting things around is a big 
requirement that we have. So our mobility requirements are 
clearly there as another requirement that we have.
    Resources to assist these nations and increasing their 
littoral--their maritime safety and security, so to the degree 
that we can--the sorts of vessels we have talked about here 
and, again, the range is a range that is quite wide, from 
frigates to large deck amphibian, we--the aircraft carrier--we 
just had an aircraft carrier visit South Africa, first time 
since apartheid, this past fall.
    So we take all of these as we can to help, one, build 
relationships, two, provide some sustained-level security 
engagement, that, three, leads to a capacity increase in our 
partner nations that is reflective of integrity, that is 
reflective of legitimacy, that is reflective of military 
performing as we would like them to perform, as they wish to 
perform, and societies where they respect their people, are 
protectors of their people, and are--contribute themselves or 
act----
    Mr. Murphy. Sure.
    General Ward [continuing]. As responsible members of that 
society.
    Mr. Murphy. Sir, how was the population of South Africa--
how were they toward the aircraft carrier being there? Were 
they--I mean, I think back when the USS John Kennedy was in 
Ireland. And, obviously, they loved it when our--that ship was 
there. But how about as far as, what was the local populace in 
South Africa?
    General Ward. The reaction was very positive.
    Mr. Murphy. Perfect. Let me focus real quick, sir, on--you 
know, I also serve on the Intelligence Committee. You look at 
the real concern with Africa, with terrorist organizations, 
especially in Somalia, the Sudan, and I am trying to get a 
strong stranglehold. What about a potential widespread outbreak 
of a disease, really a continent-wide outbreak? And, obviously, 
that would--what would that do to the--you know, the spilling 
over to government and everything else?
    Is there a focus, is there a preparation that you need that 
we need to assist there to counter that possibility?
    General Ward. There are, sir. We pay attention to that. The 
threat of a pandemic disease is very real, and we do pay 
attention to it. And devoting resources to that is, I think, a 
very wise investment.
    Mr. Murphy. Thank you, sir.
    My time is done. And thank you, Mr. Chairman.
    The Chairman. I certainly thank the gentleman.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Thank you, gentlemen, generals, admiral.
    General Mattis, it is especially good to see you here. I am 
just very proud of you, sir, and what you have done. You are 
truly a warrior-leader. It was great serving under you in Iraq.
    Admiral, my first question is for you. Could you talk a 
little bit about China and Russia's involvement in how the--
maybe the Russian tentacles are back out there again where they 
were receded for quite a while and how China is there now, too, 
please?
    General Mattis. Yes, sir. In--thank you for your service, 
and thanks to all the veterans. I know there are a lot of 
veterans of the Armed Forces, the Coast Guard, and others who 
serve on this committee. And we are proud of that part of the 
relationship, as well.
    Congressman Hunter, as to China, I am not overly concerned 
about Chinese activities in the Americas. I believe they are 
here for economic reasons to find markets for their products, 
to obtain raw materials. I think it is part of the general 
pattern of global trade that is going on.
    I do not perceive geopolitical or geostrategic interest. 
And I don't see a great deal of military-to-military activity 
between militaries of this region and the Chinese military. We 
watch it closely, but thus far I am comfortable with the 
Chinese engagement in the region.
    In terms of Russia, much has been made of this recently, I 
believe stemming from four Russian ships that operated in the 
Caribbean this past summer. They operated with the Venezuelan 
navy. They made some port visits in Venezuela, Nicaragua, and 
in Cuba, as well as some flights of Russian strategic bombers 
that came down.
    My friend, General Renuart, tracked them very assiduously. 
In all cases, as the Russian military forces were operating in 
this region, we kept track of them. That is our job.
    But I don't perceive a military threat from Russia in this 
region. Nor do I become overly exercised by their deployments 
in the region, at least at this stage. They don't pose, in my 
view, a military threat to the United States.
    And Secretary Gates said at his hearing when he was asked 
the question, ``Hey, maybe next time, if they send ships, they 
will do a port visit in Miami.''
    I think there is an approach here which ought to be one of 
recognizing that the Russians have a global navy; it is going 
to operate around the globe. They have a global air force; it 
is going to operate around the globe. And in terms of Latin 
America and the Caribbean, I don't see a military threat from 
them.
    Mr. Hunter. That is good to hear. Thank you.
    In the interests of time, let me move on here. Do you see--
for General Renuart, do you see them taking advantage--anybody 
taking advantage of the chaos in Mexico right now? Because the 
enemy does gravitate to our weakness, and right now Mexico is a 
weakness, whether or not it is a threat.
    But do you see other countries operating through Mexico in 
order to destabilize us?
    General Renuart. Mr. Hunter, I--again, I share Admiral 
Stavridis' view that neither China nor Russia--and in my 
assessment, there is not another country that is actively 
working in Mexico to destabilize us. I think certainly there 
are----
    Mr. Hunter. Iranian influence in Mexico? You don't see 
that?
    General Renuart. There is an Iranian presence in Mexico, 
for sure. The government of Mexico is working that themselves. 
We monitor it, but it is a relatively small presence.
    Mr. Hunter. Do they have a stabilizing factor?
    General Renuart. I don't see that at this point, no.
    Mr. Hunter. So they have a destabilizing----
    General Renuart. I am sorry. I misunderstood what you said.
    Mr. Hunter. Oh, I am sorry.
    General Renuart. They do not have a destabilizing effect 
that I have seen, at least at this point.
    Mr. Hunter. Thank you very much.
    General Mattis, one last question for you, sir. Do you know 
that there is no golden hour in Afghanistan right now with the 
forces that you deploy to Afghanistan?
    General Mattis. Say again, the question, sir?
    Mr. Hunter. That there is no golden hour. That is the one 
hour that you have to get people up if they get hit back to a 
facility to get treated.
    General Mattis. Sir, we are working the deployment of the 
sufficient helicopter assets to make certain we get it down a 
golden hour. There are--you know the size of the country. You 
have served there. It is a challenge. But that is our goal. And 
the Secretary of Defense, I believe, has approved the request 
for forces that will get us there.
    Mr. Hunter. Will the--you realize that there aren't any 
Ospreys in Afghanistan. Is that true, there is no Osprey 
squadron?
    General Mattis. That is correct right now.
    Mr. Hunter. Did you know that they just deployed an Osprey 
with a Marine Expeditionary Unit (MEU)?
    General Mattis. Yes, sir. I am aware of that. And that----
    Mr. Hunter. Would the Ospreys have made it so that there is 
a golden hour if they were deployed to Afghanistan--the MEU?
    General Mattis. I would have to do the time-distance factor 
to give you a truly accurate statement.
    Mr. Hunter. But let me say, I have done it for you. And 
they would have. And I was wondering if you had any say 
whatsoever in having the--do we not trust the Osprey? Do they 
not want it in combat? Or are we doing it purely to put it with 
the U.S. Navy?
    I understand that they might be going over there in the 
future, but they aren't there now. And I was wondering if you 
had any say in that when it came to the deployment of the 
Osprey?
    General Mattis. Sir, the commitment of the specific 
helicopter assets going into country will be part of the Marine 
contingent that the secretary has approved. I don't know what 
percent of that is Osprey and what is CH-53, that sort of--I 
can get that answer for you, though.
    Mr. Hunter. Thank you, Mr. Chairman.
    Thank you, Generals, Admiral.
    The Chairman. The members will notice that the public 
affairs--public relations--whatever you call it, the P.A. 
system is working much, much better. Complaining does help. You 
don't have to ask the witnesses nor the members to repeat their 
questions or their answers.
    The gentlelady from New Hampshire, there are two votes 
pending. The gentlelady from California, Mrs. Davis, will 
assume the chair upon the return, and the hearing will 
continue.
    And, gentlemen, we appreciate your patience.
    But in the meantime, we will call Ms. Shea-Porter to finish 
up before the vote.
    Ms. Shea-Porter. Thank you, Mr. Chairman.
    And thank you so much for being here and your service to 
the country.
    General Ward, I wanted to ask you about the humanitarian 
assistance programs on the continent of Africa. I wanted to 
know specifically how we are doing in comparison to other 
countries such as China. Are they more visible? Do we have a 
greater visibility? Is it enough? And what are your plans to 
make sure that the continent of Africa understands what our 
goals are there and our concerns for them?
    General Ward. Thank you, Madam Shea-Porter.
    Two things. First, the work that we do is work that 
complements the greater effort being done by our U.S. Agency 
for International Development, insofar as our humanitarian 
assistance effort is concerned.
    We, working in concert with the chiefs of mission, the 
ambassadors, determine those areas that, one, are not being met 
by any other aspect of our government and then, two, support 
the military capacity of our servicemen and women who have 
skill sets in those areas, as well.
    I think, from the standpoint of what others are doing--
i.e., nations, China, India, and others--clearly, they are 
expending a great amount of resources in various humanitarian 
projects, programs, infrastructure construction, things that we 
are not matching, things that we are not doing.
    Ms. Shea-Porter. Does that concern you?
    General Ward. It concerns me from the standpoint of what 
the effect of what is being done by others has in the 
environment and the influence that they have based on that and 
how that is influencing how those nations who receive that 
support react and respond to it.
    Ms. Shea-Porter. Well, thank you, General. I am going to 
interrupt because of the time, but I think that is exactly the 
problem that we have so often, that we come late to the game. 
And so, if I am hearing you correctly, you are concerned, as I 
think most of us would be, that we might be losing a little bit 
of the edge that we could have right now if we were more active 
and the Africans understood that we were a generous, good 
people concerned about their welfare.
    So which country, can I ask you, concerns you in Africa? 
What other foreign countries do you feel is making greater 
gains than we are, in terms of winning hearts and minds?
    General Ward. I would have to take a close look at that and 
get back to you. I think in a general sense, the reaction 
occurs throughout the continent of Africa. In today's economic 
situation, it is even exacerbated a bit because of the reaction 
or the reflection that what might have been already provided 
may be reduced--may not be as prevalent.
    And so I think that is a concern that is there. I think 
African nations are meeting in Europe in a prelude to the G-20, 
expressing the same thought of concern about their continued 
development based on the economic situation.
    But I am not sure I could name a single particular country 
that would concern me more than any other at this point in 
time.
    Ms. Shea-Porter. So looking at the economic instability and 
the long history of problems that they are enduring, this might 
be an opportune time for us to raise our visibility through 
these kinds of efforts?
    General Ward. I think anything that we do makes a 
difference. And I think it should be not episodic. If we can 
make it consistent, that is even better, ma'am.
    Ms. Shea-Porter. Okay. And one last question, thank you.
    Operation Objective Voice, getting our message, our 
ideology across, our goals for democracy, how strong a message 
are we delivering there right now? Is it--are you able to 
actually have an impact? Or is it still a challenge to 
communicate like that?
    General Ward. I think the assessment that we get and how we 
see those pieces of information that are transmitted through 
Operation Objective Voice, when those things appear in other 
media on the continent, it lets us know that people are paying 
attention, the Africans are paying attention.
    And then, as we get reactions from our embassies, because 
we do that in very close coordination with the embassies and 
the country teams, their public diplomacy sections, that we get 
the assessment that it is making a difference, they are 
listening, and it does cause them to see what goes on from a 
perspective that reflects that that we would intend our force 
to be.
    So I think it is making a difference. And our partners, the 
ambassadors, the country teams, as well as the nations, think 
is a very good program that we are involved in.
    Ms. Shea-Porter. I thank you, and I yield back.
    The Chairman. Thank you very much.
    We will go vote. We have two votes, and Mrs. Davis will 
assume the chair. And as I read the list, Mr. Larsen will be 
the first batter up.
    And, again, thank you, gentlemen, for your appearance.
    [Recess.]
    Mrs. Davis [presiding]. All right, everybody. Thank you so 
much for waiting. We appreciate your patience.
    I am going to turn to Mr. Larsen.
    Mr. Larsen. Thank you. And it looks like I am the only one 
left. Unless someone else shows up, I will just take about 30 
minutes, if you don't mind, Madam Chair. I will be very--try to 
be brief here.
    General Renuart, I want to chat with you about the other 
border, the U.S.-Canadian border, obviously, and specifically 
with regards to the 2010 Winter Olympics, which will be held in 
Vancouver, British Columbia, obviously in another country, but 
only about 10 miles north of the U.S.-Canadian border and right 
across from what is my district.
    And I know U.S. NORTHCOM and DOD has had a supporting role 
in some of the preparation for security for the Olympics. And I 
just wanted to ask you what you see the role and function of 
U.S. NORTHCOM with regards to the Olympics and what role you 
have played and missions you have played?
    General Renuart. Thank you, sir. I appreciate that 
question.
    Actually, there are--I have roles in two hats. In my NORAD 
hat, as you know, we provide for air security and sovereignty 
for both the U.S. and Canada, and we have had a very close 
relationship with the security, the integrated security unit 
formed by the governor of Canada--government of Canada, to 
ensure that we have the pieces in place to provide for a safe, 
secure monitoring of the airspace in and around not just 
Vancouver, but, as you know, Seattle and the traffic and 
transit across the border back and forth each day, not just 
with the Olympics, is substantial.
    And so we have been involved very actively through our 
Canadian air defense sector and my Canadian NORAD region to 
understand the challenges that the Canadian government feels it 
has with respect to a secure airspace.
    We are partnering with Transport Canada, with the Federal 
Aviation Administration (FAA), with our NORAD regions both in 
the U.S. and in Canada to ensure that we have created 
procedures that will allow for safe transit flow of aircraft in 
and out of the area, and to monitor the area--the airspace 
around that area, low altitude to high, for any potential 
threat.
    In my NORTHCOM hat, as you may know, we have a civil 
assistance plan that we have agreed to between my counterpart 
in Canada, Canada Command, and Northern Command, to allow us to 
have a framework that could provide military support, should it 
be requested by either of the governments.
    And I would use a great example, Hurricane Gustav, where 
really the last evacuees we took out of New Orleans were on a 
Canadian C-17. So we have exercised that process already.
    With respect to NORTHCOM support, really, we sit in a 
situation where the Canadians clearly need to lead and manage 
and are managing their support to the Olympics. There may be 
some unique capabilities that don't reside within the Canadian 
military.
    The Canadian government is considering those potential 
needs and will provide that through a diplomatic note from the 
ambassador to the U.S. government. And then we are in a 
position and be prepared to provide whatever support may be 
required.
    Mr. Larsen. Thanks.
    General Mattis, good to see you again, sir. And hopefully 
the Zags will do a good job tomorrow night. We are all cheering 
for them and the Huskies.
    Can I ask you some questions about NATO, your role with 
NATO transformation, if that is all right.
    Last week, we had a hearing about the economic crisis and 
its impact on national security. One of the themes was that the 
economic recession globally would have an impact on our allies' 
ability to meet their own defense budget needs.
    And are you running into a problem as your--with your NATO 
hat on, with our allies and their investment into their 
transformational capabilities?
    General Mattis. Sir, I am, but it is not a late-breaking 
thing that I can attribute directly to the economic turndown. 
This was a big enough concern for me when I arrived there at 
Joint Forces Command (JFCOM) Allied Command Transformation a 
little over a year ago, that we started the multiple futures 
project, in an attempt to try to harvest from the best think-
tanks in Europe and North America what are the threats to the 
populations and come to some agreement on what is the threat to 
Europe.
    Because if we don't come to an agreement on that, then to 
try and get them to perhaps carry a more equitable share of the 
load, I think, was going nowhere. And we continued to see 
declining defense budgets.
    So I think there is a larger issue at stake, frankly. And 
it is something that we are going to have to engage upon 
through the Secretary of State, Secretary of Defense--already 
going on, by the way--but we need to get the military 
appreciation of the situation sufficient that the political 
leadership know what we think is the threat.
    And I should report that out to my boss in Brussels, the 
Secretary General, within the next 30 days, right after the 
summit.
    Mr. Larsen. Madam Chairman, just two questions for the 
record, and I will submit these for the record, one for General 
Mattis about perhaps a change in who is going to be sitting in 
as supreme allied commander transformation, the possibility--it 
is possible it might be the French, in their new role in NATO.
    And, second, I will have questions for the record for 
Generals Ward and Stavridis on 1206 and 1207. And we will give 
those to you all relatively soon.
    Mrs. Davis. Thank you, Mr. Larsen.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Madam Chairman.
    General Renuart, could you please provide an update on the 
security upgrades being made to building two at Peterson Air 
Force Base?
    General Renuart. Certainly, Mr. Lamborn. It is good to see 
you.
    And, Mr. Coffman, also, good to see the Colorado 
delegations almost the last two standing, so well done.
    With respect to--and, Congressman Lamborn, you know we have 
been involved in a number of improvements in to expand the 
security protection, if you will, of our operations in so-
called building two, our NORAD-NORTHCOM command center.
    We have completed now about $4.5 million to $5 million 
worth of projects since we had the chance to chat last. They 
include improvements to the entry access procedures. We have 
created a dedicated Department of Defense security guard force 
now that is trained and equipped.
    We have added additional fencing, access control, vehicle 
control, vehicle inspections to our security procedures so that 
we would reduce the potential for someone with a threatening 
intent to gain access to the building.
    We have a couple projects that are just still underway, 
continuing to work. One involves the electrical access in the 
building. One involves the provision of electromagnetic 
hardening. I am sorry Mr. Bartlett's not here, but we are 
improving that electromagnetic hardening in the building.
    And we continue to work with the wing to find additional 
security measures that the host wing can take to ensure that we 
don't have that kind of access to the building that might cause 
us a threat.
    Mr. Lamborn. Thank you.
    Now, what role do you envision for Cheyenne Mountain Air 
Force Base in the future?
    General Renuart. Well, Congressman, as you know, we 
continue to use Cheyenne Mountain as our alternate command 
center. It has played an active role. As a matter of fact, 
while we were doing some minor construction in the primary 
command center, we moved our operation to the mountain and have 
conducted full-up operations out of the mountain, although, as 
you know, it is at a slightly smaller footprint.
    We continue to have a rotating presence of assessors and 
command-and-control capability in the mountain. And we will 
continue to do that for the foreseeable future.
    So I think Cheyenne Mountain will continue to have a 
principal role in our overall command structure, albeit 
principally as the alternate command site.
    Mr. Lamborn. Okay, thank you for those answers. And I do 
look forward to continuing a dialogue with you on these 
important issues.
    General Renuart. Absolutely.
    Mr. Lamborn. And thank you for the work that you do.
    General Renuart. Thank you.
    Mrs. Davis. Thank you, Mr. Lamborn.
    Mr. Coffman.
    Mr. Coffman. Thank you, Madam Chairman.
    General Mattis, it is--we obviously use a pretty large, 
conventional footprint when it comes to regime change and then 
nation-building and used the counterinsurgency strategy. But we 
also have insurgency capability in special operations and our 
ability to go in and align ourselves with an indigenous peoples 
that share our strategic view in terms of regime change or 
trying to influence a political situation in a given region.
    Could you for us speak to an assessment of our 
capabilities, in terms of insurgents, on that side of 
insurgency?
    General Mattis. Mr. Coffman, it would be best if Admiral 
Olson, my shipmate at special forces, Special Operations 
Command, gave it. However, I can perhaps address at least some 
of the edges of this.
    We have never had a more integrated special forces, general 
purpose forces effort in our history. They are so embedded now 
in each other, they have, in many cases, the same capabilities 
and, where they are not the same, the unique capabilities are 
used back and forth appropriately by the combatant commanders.
    The special forces are heavily used right now. And the 
result is, we have to come up with a better allocation of 
resources, of enablers, for example, from the general purpose 
forces that enable the special forces to operate.
    At the same time, we have a very well-defined division of 
labor, having sat down with Admiral Olson of Special Operations 
Command, chief of staff of the Army, commandant of the Marine 
Corps, myself, and we look at when we are going to try to do 
these things before we have to send in large footprints of 
general purpose forces, who should do it?
    And let me tell you what the breakout is, in general terms. 
If we are going to set long-term relationships with indigenous 
forces, with other nations, that is going to be special forces. 
It will remain there. The Army A-teams, the kind of people who 
are trained to do this.
    Where it is going to be teaching skill sets--marching, 
marksmanship, first aid, basic infantry tactics--the general 
purpose forces will pick those up so that we free the special 
forces to do what they only alone can do best, if that gives 
you somewhat of an answer, I hope.
    Mr. Coffman. Thank you, General Mattis.
    General Ward, in AFRICOM, what is your role or the role of 
AFRICOM--is there a role in Darfur, indirect or direct, 
potentially direct, obviously, no direct role right now, but 
maybe you could speak to that?
    General Ward. Well, thank you, sir.
    Clearly, our role in Darfur today is that--of an indirect 
nature, as we support those African Union and United Nations 
forces that are there, that have been designated to go there, 
enabling them, training, equipping to a degree, as well as 
providing logistic support.
    I mentioned, you know, in January, February timeframe, we 
provided lift assistance to the government of Rwanda to move 
outsized cargo--essentially, trucks--that they would use in the 
mission they are in, in Darfur.
    And so we are involved with those nations. We are involved 
with the African Union, as they endeavor to put their plans in 
place for addressing the situation in Darfur.
    Clearly, you know, whatever we would do would be a result 
of a policy decision having been taken with respect to the role 
that we play. And, as you pointed out, to this point, that is 
purely a role from the military point of view of providing 
assistance to those peacekeeping forces that have been 
earmarked for peacekeeping activities in Darfur.
    Mr. Coffman. Would a correct assessment be that things have 
deteriorated recently in Darfur?
    General Ward. I think, from the standpoint of the 
indictment and the reduction in the nongovernmental 
organizations that are allowed to operate in Darfur, it would 
certainly indicate a degradation of what goes on there.
    Not been there, obviously, so I can't speak to it directly, 
but clearly the indications are that is the case.
    I think, at this point in time, you know, the pipeline 
distribution issues are there, with respect to supplies, 
foodstuffs, water, et cetera. So I think it would be fair to 
say that there has been a degradation of the humanitarian 
relief efforts there in Darfur.
    Mr. Coffman. Admiral, I think it was expressed during the 
discussion about a Hezbollah presence in your battle space. 
Could you speak to that and assess the threat level?
    Admiral Stavridis. Yes, sir. I will afford myself, if it is 
appropriate, the opportunity to provide for the record 
classified portions of this.
    But as a general proposition, I am concerned about the 
presence of Hezbollah throughout the Americas, in the Southern 
Cone of South America, in the Andean ridge, and in the 
Caribbean. Their primary activities are proselytizing, 
recruiting, money laundering, drug selling, and using the 
profits from that to conduct a variety of the other activities 
that I mentioned.
    It is of concern. I do not see operational terror cells in 
the region, but I do see that kind of support mechanism. It is 
of concern. And I will, again, provide some more detail to the 
committee on that.
    Mr. Coffman. Thank you, Admiral.
    Madam Chairman, I yield back the balance of my time.
    Mrs. Davis. Thank you, Mr. Coffman.
    Mr. Franks.
    Mr. Franks. Thank you, Madam Chair.
    General Renuart, I have been hearing lately that you have 
been quoted--I think very accurately--as saying that our 
missile defense capability, as it is now, our present 
capability, is--that you have confidence that it is an 
effective defense against the present threat from North Korea. 
And it is a perspective that I share.
    One of the concerns that some of us have is that--I think, 
what, we have 26 Ground Based Interceptors (GBIs) now in the 
inventory, and there is a question related to the 18 remaining 
that we are hoping to put in inventory soon. And because I am--
like a lot of other people--concerned about the need to have as 
many GBIs in inventory as possible related to potentially, you 
know, a growing North Korean threat and even, at some point--I 
know it would be more for the East Coast for the time being, 
but if the Iranian missile threat continues to grow.
    And so just from a strategic perspective, what do you think 
the strategic implications are of not fulfilling the inventory 
or filling the inventory to a total, I believe, that would be 
of 44? What do you think are strategic implications of either 
delaying that or failing to follow through with those 18 
additional GBIs?
    General Renuart. Well, thanks. I think it is--as you say, I 
have expressed confidence in the capabilities that we have 
today against the threat that we see.
    Mr. Franks. Right.
    General Renuart. I think it is important for us to continue 
the robust testing regimen that General O'Reilly has laid out. 
That will allow us to grow the level of confidence we have 
against a variety of capabilities that might develop in the 
future.
    I have been supportive of that--as you mentioned, the 
planned buy of 44 interceptors. I think that makes very good 
sense to allow us to not only maintain a capability against 
growing threats, but also to refresh missiles as they may need 
to be upgraded, in terms of software and the like.
    So I continue to be supportive of that initial plan. I 
think there is still quite a bit of discussion ongoing now with 
respect to European basing sites that I am really not in a 
position to have an expert opinion on.
    And so I would--my advocacy, if you will, is to keep the 
current testing program, the regimen on track, to continue to 
make it a complicated, sort of all-aspect testing program so 
that we continue to be comfortable that, as threats may 
develop, as other nations, rogue nations might expand their 
capability, we have an ability to answer to that.
    Mr. Franks. Well, thank you, sir. I guess, you know, I had 
the privilege of being present last night at the Missile 
Defense Agency when one of these tests was conducted, when we 
had--down in the Pacific, they shot a missile about 200-plus 
kilometers into the air, and they sent from our Terminal High 
Altitude Area Defense (THAAD) system two interceptors. The 
second one was not necessary.
    And I just thought it was a great moment for America, as so 
many of these things are, and yet a lot of times the Armed 
Forces don't get the credit that they deserve, so--you know, so 
nobly deserve in these situations.
    Even when there is not a war going on, you guys are always 
out trying to make us stronger and more capable of defending 
this country. And I honor you for that with all of my heart.
    And I--again, you don't get the credit. I think that should 
be all over the news today, that, you know, we no longer hit, 
as General Obering says, a bullet with a bullet. We hit a spot 
on the side of a bullet with a bullet on a consistent basis. 
And that is an accomplishment, and I think that that means that 
my two little babies are going to be safer. And I appreciate 
you for protecting them.
    So I got about one last shot at you here.
    General Renuart. Yes, sir.
    Mr. Franks. Given the fact that we have--essentially, our 
firing doctrine is three on one, related to the Korean threat, 
or at least we want to be prepared for that, that would give 
us, really, right now, a chance to only effectively engage 
eight missiles. And, again, that is, I know, a rough analyses.
    But is there anything else that you would say related to 
the strategic necessity of having additional interceptors? Do 
you think that that is important? What emphasis would you put 
on that?
    General Renuart. Well, Congressman, I am glad that you, 
first, had a chance to see that THAAD test. It really was a 
great success. And I think what that does is it also underlines 
the fact that missile defense is not just about the ground-
based midcourse interceptors. It is a comprehensive approach, 
from the warning sensors that we must use, air-, sea-, space-
based sensors, radars, if you like, in simple terms, to both a 
long-range and a theater capability to defend.
    And, certainly, the Navy's SM-3 aboard our Aegis cruisers, 
the THAAD system that you saw tested so successfully, as well 
as the ground-based midcourse interceptors provide us a 
comprehensive capability.
    And I think it is important for us to continue that 
integrated approach. How that translates to numbers of 
missiles, I think we don't know yet, because as the 
capabilities of each system mature, you may see trade space 
amongst each of those systems to allow you to have the most 
efficient capability to defend the nation.
    I think, as you said, the capability against the limited 
threat we see today, we are in good shape. I would not tie to a 
particular shot doctrine, because, as the system matures, the 
system will actually do some analysis to determine how best to 
intercept one of these incoming missiles.
    So I think, again, we have a good commitment to this 
production rate. My sense is the department is supportive of 
that, so I don't--I am not worried about that at this point. 
But I think we need to let this testing regimen complete itself 
before we tie ourselves to some number that may not actually be 
needed or maybe there is more. Hard to say.
    Mr. Franks. Well, Madam Chair, thank you.
    I know that they don't put four stars on the shoulders of 
these individuals casually. So I thank all of you for your--
really, committing your whole life to the cause of human 
freedom. And I wish we could really see more of what you do 
sometimes. I think it would mean a lot to the country.
    Thank you.
    Mrs. Davis. Thank you, Mr. Franks.
    And, as we wind up, and I want to thank you very much, as 
well.
    Can I just go back to a second--to comments earlier about 
irregular warfare? And I am wondering if you have any message 
to the Personnel Committee in what we should be focusing on, in 
terms of the recruiting, retention, and training of our 
military that will continue to support the goal of having a 
superiority in irregular warfare, as well as superiority in 
conventional and nuclear technology?
    Can you respond quickly? Anything----
    General Mattis. Yes, ma'am, just very quickly, none of us 
can predict the future, and we all have certain modest 
expectations about whether or not we will really know where the 
next threat comes from, but we know this.
    If we keep a very high-quality force, officer and enlisted, 
if we keep recruiting the kind of folks who can think on their 
feet, the kind of folks who can integrate high technology, but 
not lose sight of the fact that human factors in war remain the 
dominant reason for success or failure, then we will make the 
adaptations, for example, in language, training, cultural 
training, and these sorts of things.
    But it really comes down to one fundamental premise, and 
that is that we get the best and the brightest for their jobs. 
We are decentralizing decisionmaking. And as we look at the 
cyber threats, and the EMP note that was made earlier, we are 
going to have to continue to decentralize decisionmaking.
    That means we need, at the very youngest ages, young folks 
who can use initiative and exercise good judgment, both 
tactically and ethically, because of the nature of these 
fights. It is all about quality, ma'am.
    General Renuart. Ma'am, if I could add a point----
    Mrs. Davis. Go ahead.
    General Renuart [continuing]. One of the keys to, if you 
will, preventing irregular war is the ability to build 
partnership capacity among our friends around the world. And 
while certainly Jim is right that today's young men and women 
are eager to serve and they understand the technical nature of 
the business, I think it is important for us to continue that 
capability to build partnership capacity among our friends so 
that countries can manage those irregular threats that may 
develop without it requiring a large U.S. presence.
    Admiral Stavridis. And--oh, I am sorry, Kip, go ahead.
    General Ward. And just not to let that one--not go without 
another strike. In that whole regard of building the capacity 
of our partners, clearly our cultural understanding is 
critically important. The language programs within my command, 
my director of intelligence and knowledge development, whereby 
we try to have our best understanding of our partners, their 
culture, environment, history, traditions, et cetera, et 
cetera, those things help with those relationships, helps with 
the partnerships that we build, increases the trust and 
confidence between us, and therefore helping--to get to the 
point that was made--create the type of environment that would, 
in fact, prevent the irregular requirements from even existing.
    Mrs. Davis. Thank you.
    Admiral.
    Admiral Stavridis. I will just close, if I could, by 
underlining language and culture very specifically. And I 
believe there are enormous second-order effects having 2 
million people in the Department of Defense studying and 
learning language and culture. It is a ripple effect, both in 
the world and in our own country.
    Mrs. Davis. Thank you very much.
    We will look forward to working with you, as we all face 
those difficult decisions and choices. And we hope to put more 
of our resources in that direction.
    Thank you very much for being here. Again, we applaud your 
service. And thank you for your time and attention today. Thank 
you.
    The meeting is adjourned.
    [Whereupon, at 12:52 p.m., the committee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                             March 18, 2009

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 18, 2009

=======================================================================
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 18, 2009

=======================================================================
      
                   QUESTIONS SUBMITTED BY MR. MILLER

    Mr. Miller. Do you support the Navy's reasoning, as identified 
below, for re-establishing the 4th Fleet in Florida? ``This is a 
significant change and presents us the opportunity to garner the right 
resources for the missions we run for Southern Command,'' said Rear 
Adm. James W. Stevenson Jr., Commander, U.S. Naval Forces Southern 
Command (NAVSO). ``As a numbered fleet, we will be in a better position 
to ensure the Combatant Commander has the right assets available when 
needed.'' http://www.navy.mil/search/display.asp?story_id=36606
    Admiral Stavridis. The 4th Fleet has been very positive for 
USSOUTHCOM in our efforts. The ability of the planning staff in 
Mayport, Florida to reach back to the Navy and obtain assets has been a 
singular success. Our ability to bring Navy ships like the Boxer and 
the Kearsarge into the region to do medical activities, our disaster 
relief off of Haiti, our counter-narcotics interdictions of last summer 
and this past fall are just a few examples of the positive effect of 
the 4th Fleet. We're very satisfied with the Navy's decision to stand 
up the 4th Fleet.
    Mr. Miller. As a Senate-confirmed 4 star flag officer, you have 
testified many times that when asked to provide your personal opinion 
to the Congress, you would do so. With that in mind, do you agree with 
the following statements made by the Navy to Senator Webb and his 
staff: ``The decision to create the capacity to homeport a CVN at Naval 
Station Mayport represents the best military judgment of the Navy's 
leadership regarding strategic considerations. The need to develop a 
hedge against the potentially crippling results of a catastrophic event 
was ultimately the determining factor in the decision to homeport a 
nuclear-powered aircraft carrier in Mayport. The consolidation of CVN 
capabilities in the Hampton Roads area on the East Coast presents a 
unique set of risks. CVNs assigned to the West Coast are spread among 
three homeports. Maintenance and repair infrastructure exists at three 
locations as well. As a result, there are strategic options available 
to Pacific Fleet CVNs if a catastrophic event occurs. By contrast, 
Naval Station Norfolk is homeport to all five of the CVNs assigned to 
the Atlantic Fleet and the Hampton Roads area is the only East Coast 
location where CVN maintenance and repair infrastructure exists. It is 
the only location in the U.S. capable of CVN construction and 
refueling. The Hampton Roads area also houses all Atlantic Fleet 
trained crews and associated community support infrastructure. A second 
CVN homeport on the East Coast will provide additional CVN maintenance 
infrastructure and provide strategic options in case of a catastrophic 
event in the Hampton Roads area. It will also enhance distribution of 
CVN assets, thereby reducing the risks to CVNs and associated 
maintenance and repair infrastructure supporting those crucial 
assets.''
    Admiral Stavridis. The Navy's objectives for homeporting a CVN in 
Mayport are independent of 4th Fleet operations in the SOUTHCOM Area of 
Focus. Homeporting decisions and policies are made by the Navy and they 
consider many factors. I have no reason to doubt the Navy's reasons for 
this move.
    Mr. Miller. ADM Stavridis: I'd like to ask you about President 
Obama's Executive Order to close the detention facility at GITMO since 
it is in your Area of Responsibility (AOR). To what extent were you 
consulted by the Administration to get your military expertise on 
whether or not to close GITMO, the risks of closing GITMO and the 
practicality of closing GITMO?
    Admiral Stavridis. Providing oversight of Joint Task Force 
Guantanamo, and the mission of safe and humane, transparent, legal care 
and custody of detainees in our charge, remains our focus. The 
Secretary of Defense has appointed a Detainee Task Force (DTF), co-
chaired by Mr. Joseph Benkert (Assistant Secretary of Defense for 
Global Security Affairs) and Major General Irving Halter (Vice Director 
for Operations, Joint Staff), to coordinate the Department of Defense 
decision-making and actions necessary to implement the 22 Jan 09 
Executive Orders affecting detainees and detainee operations. This 
includes expediting the Department-wide responses to the President's 
orders to review and determine the disposition of individuals detained 
at Guantanamo Bay, Cuba. This Command provides input to the DTF through 
a U.S. Southern Command representative, who participates in all 
planning efforts. I receive routine updates on the DTF progress and 
have opportunity to pro-

vide input. USSOUTHCOM also provided membership to the Admiral Walsh 
Compliance Team that visited Joint Task Force Guantanamo in February 
and reported back to the Secretary.
    Mr. Miller. ADM Stavridis: In your testimony, you discuss the 
growing Islamic extremist threat in South and Central America. Please 
elaborate on this, particularly increased support for Hizbollah in 
Venezuela. To what extent is Islamic extremism's reach in SOUTHCOM and 
what steps can we take to better combat this?
    Admiral Stavridis. [The information referred to is classified and 
retained in the committee files.]
    Mr. Miller. Strategic Communications is a vital part of ``soft 
power.'' I believe we as a nation must do a better job at unifying our 
themes and messages across the globe. For all COCOM commanders, What is 
your assessment of the strategic communication plans in your AORs? What 
are your shortfalls and what do you need to be more effective?
    Admiral Stavridis. At Southern Command, Strategic Communication is 
our main battery. Within our Area of Focus, there is no conventional 
country on country conflict, nor will there likely be in the 
foreseeable future. Instead, we face a market place of ideas. Strategic 
Communication at Southern Command enables our leaders to synchronize 
words, images and actions to reduce and ultimately eliminate what we 
call `the say-do gap.' By ensuring our words, images and actions are in 
alignment, we build credibility with both our friends and adversaries. 
This creates the conditions necessary for our ideas to resonate most 
effectively in the market place. This approach can only improve with 
greater interagency integration.
    Mr. Miller. Strategic Communications is a vital part of ``soft 
power.'' I believe we as a nation must do a better job at unifying our 
themes and messages across the globe. For all COCOM commanders, What is 
your assessment of the strategic communication plans in your AORs? What 
are your shortfalls and what do you need to be more effective?
    General Renuart. Mr. Miller, we agree that a better whole-of-
government approach to unifying our words and deeds would be beneficial 
to the nation. I am confident that the President's designation of the 
Department of State as the lead for the U.S. Government's strategic 
communication efforts will ensure the needed unity of effort. As part 
of the Department of Defense, NORAD and USNORTHCOM represent the 
military elements of the U.S. Government's strategic communication 
efforts in the United States, Canada, Mexico and the Caribbean. It is 
my responsibility to ensure our actions are consistent with the intent 
of the Secretary of Defense's and Secretary of State's larger vision.
    At NORAD and USNORTHCOM, our strategic communication efforts are 
centered on developing, executing, and assessing communication 
strategies that have been integrated across the Commands, as well as 
synchronized with interagency partners. These strategies are designed 
to support the strategic objectives of our military plans. In general, 
these objectives include dissuading and deterring external threats, 
providing timely and effective civil support, and enhancing unity of 
effort with our interagency, intergovernmental and international 
partners.
    To date, we have been remarkably successful in our strategic 
communication efforts for a very limited set of outcomes. However, more 
work needs to be done to appropriately scale this effort to address the 
whole of the Commands' objectives. We are committed to resourcing this 
effort to ensure its success.
    Mr. Miller. What is NORTHCOM's readiness if and when there is a 
coordinated cyber attack on the United States?
    General Renuart. USNORTHCOM's readiness in a coordinated cyber 
attack on the U.S. is at a moderate to high level for computer networks 
within DOD, and at a low to moderate level for support of civil 
authorities with respect to the cyber domain. On a day-to-day basis, 
USNORTHCOM's focus is on cyber defense of those computer systems, 
networks, and related infrastructure required to execute our assigned 
missions. Defensive measures by DOD and non-DOD mission partners help 
to mitigate the adverse impact of cyber events on our mission 
performance. We believe that our cyber defensive posture will allow 
USNORTHCOM to operate effectively during major cyber incidents in order 
to ensure continuity of operations, but we recognize that more needs to 
be done.
    To improve the command's readiness, USNORTHCOM is an active 
participant in National and DOD-level cyber exercises. We have 
participated in such exercises as Cyber Storm (Department of Homeland 
Security (DHS)-sponsored), Bulwark Defender (DOD-sponsored), and have 
integrated more cyber play into our Command's exercise events.
    One of USNORTHCOM's missions is civil support, to include Defense 
Support of Civil Authorities (DSCA), at U.S. Federal, tribal, State, 
and local levels, as directed.

The recent addition of cyber to USNORTHCOM's role in DSCA has expanded 
our responsibilities and will require the Command to plan for and 
provide augmentation of DOD capability to DHS in an effort to mitigate 
cyber threats to the homeland. In February 2009, USNORTHCOM staff, with 
support from Department of Homeland Security, initiated a DSCA cyber 
mission analysis which helped define the cyber capabilities DHS might 
need from DOD. Operational planning that includes identifying/
provisioning DOD force structure to address the DSCA cyber requirement 
is a task that will be completed during calendar year 2009. This 
includes planning for second and third order effects that may occur as 
a result of a coordinated cyber attack on the United States.
    Mr. Miller. Strategic Communications is a vital part of ``soft 
power.'' I believe we as a nation must do a better job at unifying our 
themes and messages across the globe. For all COCOM commanders, What is 
your assessment of the strategic communication plans in your AORs? What 
are your shortfalls and what do you need to be more effective?
    General Mattis. USJFCOM's strategic communication effort focuses 
across a ``functional AOR,'' providing joint forces that are well-
trained in the subtleties of operating in complex public information 
environments. Defense and service schools, and Joint Professional 
Military Education venues provide basic knowledge on strategic 
communication, but USJFCOM is tasked with providing applied training 
for joint force commanders and staffs through participation in major 
exercises, seminars, and planning events. USJFCOM closes this cycle by 
encouraging dedicated improvement of joint capabilities across 
doctrine, training, education, and technologies through collaboration, 
concept development and experimentation.
    USJFCOM's strategic communication training and capabilities 
development efforts continue to grow. The following items reflect some 
of the demands placed on USJFCOM strategic communication requirements 
during the past two years, and manifest as a summary of shortfalls.

    -  Development of media analysis tools/capabilities to support the 
joint force

    -  Development and integration of strategic communication 
education, language, cultural awareness in existing training mechanisms

    -  Delivery of strategic communication training across COCOMs and 
applying it to exercise support requirements

    -  Design and conduct of a study to determine what force structure 
is needed to properly conduct strategic communication processes across 
DoD at the joint force level

    -  Study and design processes to integrate viable SC planning and 
execution across DoD and with other agencies

    -  Developing access, understanding, and processes and procedures 
for dealing with social/emerging media

    -  Resource (Man and equip) and operate the Joint Public Support 
Element (JPASE) to ensure quality connectivity at all classification 
levels

    -  Completion of fourteen 2006 QDR SC Roadmap tasks

    So the needs focus on a lack of sufficient manpower and resources 
for adequate coverage of training requirements, and a lack of 
sufficient funding to address capabilities and requirements for joint 
strategic communication in the future. This is commensurate with the 
importance of USJFCOM's strategic communication task at hand: 
developing innovative capabilities that enable contributing joint 
functions to perform strategic communication as well as they perform 
coordinated, joint kinetic operations.
    Mr. Miller. Strategic Communications is a vital part of ``soft 
power.'' I believe we as a nation must do a better job at unifying our 
themes and messages across the globe. For all COCOM commanders, What is 
your assessment of the strategic communication plans in your AORs? What 
are your shortfalls and what do you need to be more effective?
    General Ward. Strategic Communication is a priority at U.S. Africa 
Command, and we have made it a consideration in all our programs, 
operations, and activities. The Command has developed Strategic 
Communication guidance that includes all appropriate audiences, 
encourages two-way communication, and ensures a consistent message in 
our area of responsibility. We have collaborated closely with the 
interagency community and CENTCOM on a Strategic Communication plan to 
support anti-piracy efforts. We still have work to do, of course, in 
improving interagency coordination and becoming more proactive than 
reactive in our Strategic Commu-

nication efforts. In order to be more effective, we currently are 
identifying the training and manpower resources that our component 
commands need to plan and execute Strategic Communication in support of 
our missions.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WILSON
    Mr. Wilson. What is your response to the GAO report that 
eradication efforts have been offset by increased efficiencies of the 
cultivators of coca? Do you believe that it is time for new counter-
narcotics strategy in the Hemisphere?
    Admiral Stavridis. I am not significantly surprised to see new 
efficiencies in coca cultivation partially offsetting our collective 
efforts to reduce supply. Drug Trafficking Organizations (DTOs) are 
well financed, adaptable and utilize the latest technology. The fact 
that DTOs must pursue new techniques indicates that we are having an 
impact, forcing them to adapt. This is also borne out by recent DEA 
statistics that show an approximately 104 percent increase in price and 
approximately 35 percent decrease in purity in U.S. markets.
    Our overall hemispheric strategy includes efforts in the source, 
transit and arrival zones. As you know, DoD's primary role is in supply 
reduction. Whereas DoD focuses on Detection and Monitoring and supports 
Law Enforcement in interdiction and apprehension, Department of State 
(DoS) is lead for eradication. Both missions are mutually supportive 
and overlap. We constantly strive to refine our strategy in order to 
counter a highly adaptive adversary. Again, changes in DTO practices 
across the drug spectrum; cultivation, production, transportation to 
markets, and distribution indicate that we are having an impact on 
DTO's. We will continue to review our strategy to ensure it is the most 
effective possible and anticipates future shifts in DTO methodology.
    Mr. Wilson. Can you describe the current mix of U.S. military 
forces in SOUTHCOM's AOR? What is the optimal mix of active and reserve 
forces to execute your mission? Do you have the right mix of force 
skills and capabilities?
    Admiral Stavridis. I believe that there is a proper mix of reserve 
and active duty forces throughout the USSOUTHCOM AOR. At any one time, 
there are approximately 7,000 personnel assigned to 30 countries and 
the Services have determined the best fill for our requirements, 
whether from reserve or active duty forces. I recognize that there are 
some skill sets that exist primarily in the reserve component and we 
welcome their deployment to the USSOUTHCOM AOR.
    USSOUTHCOM utilizes forces from both the reserve and active 
component to accomplish Theater Security Cooperation (TSC) events, 
Counter Drug/Counter Narcoterrorism (CD/CNT) operations, detainee 
operations at Joint Task Force-Guantanamo (JTF-GTMO), Special 
Operations Forces (SOF) missions, exercises, and humanitarian 
assistance/disaster relief operations as required. Capabilities 
required to successfully accomplish the missions outlined above reside 
in both the active and reserve components of the force providers. For 
example, JTF-GTMO utilizes reservist lawyers and doctors to provide 
safe and humane treatment of detainees. Our theater special operations 
command's missions are augmented by the 20th Special Forces Group, 
which is regionally aligned for South and Central America, as well as 
Navy reserve Special Warfare operators that carry out missions 
throughout the region. The National Guard also provides security forces 
at Joint Task Force-Bravo in Honduras in the form of a 35 person 
security detachment.
    Exercises are another form of reserve support to the command and 
the Services provide reserve units to exercises as a means to 
accomplish key and critical training objectives to ensure unit 
readiness throughout the year. Additionally, reservists provide 
significant support for headquarters USSOUTHCOM and the military groups 
around the region. Virtually every office at headquarters USSOUTHCOM 
receives some reserve support and without their service, there would be 
an additional workload on the civilians and active duty forces assigned 
to the headquarters.
    Active duty forces provide a preponderance of the force at JTF-
GTMO, for CD/CNT operations, and disaster relief operations. There are 
currently more than 2,000 personnel assigned to JTFGTMO and except for 
the lawyers and doctors mentioned above, most are active duty. CD/CNT 
operations are carried out by forces from the Navy, Marine Corps, Air 
Force, Army, and Coast Guard. The Navy sources approximately four 
guided missile frigates at any one time, the Marine Corps provides 
training teams that deploy to the region and teach small unit tactics 
for host nation counter drug forces, the Air Force provides base 
operating forces at Curacao in addition to flying AWACS sorties in 
support of the ongoing CD/CNT efforts, and the Army provides SOF assets 
to increase the capability of host nation SOF forces in an effort to 
reduce the flow of illicit narcotics and increase the capability of 
host nation forces.
    Mr. Wilson. With the closing of SOUTHCOM's access to the Manta Air 
Base this year, how will the counter-narcotic missions that were being 
staged out of Ecuador be executed?
    Admiral Stavridis. USSOUTHCOM is grateful for Ecuador's assistance 
and support over the last ten years, and appreciates and commends the 
Ecuadorian Air Force for its hospitality and cooperation. Ecuador has 
fulfilled its commitment to the U.S., and we look forward to continued 
cooperation with Ecuador on counterdrug efforts.
    Some operations currently conducted from Manta can be conducted 
from other locations where we have access to facilities. For example, 
the Air Bridge Denial program can be conducted from Curacao, but at 
higher operational cost due to increased transit times to the 
operational area in Colombia.
    Additionally, JIATF-S is able to operate law enforcement aircraft 
in support of USSOUTHCOM's Detection and Monitoring (D&M) mission from 
commercial locations in partner nations that are reluctant to allow 
U.S. military air operations. Military aircraft conducting D&M missions 
will continue to operate from existing facilities in El Salvador, and 
other locations where we currently have access.
    However, it is important to identify alternate locations in order 
to maintain the operational reach needed to monitor trafficking 
corridors that extend deep into the Pacific. We are in discussions with 
other governments to allow the U.S. to utilize their airfields and 
support facilities. These airfields must have runways of adequate 
length, sufficient fuel available and appropriate force protection. 
Additionally, they must be close enough to the threat vector to give 
aircraft as much on station time as possible.
    As we continue to analyze the available options to offset the loss 
of Manta, we will make the Committee aware of any additional resources 
that may be required in the National Defense Authorization Act.
    Mr. Wilson. What is your assessment of Venezuela's relationship 
with Iran? How does this correspond with indications of increased 
support for Hizbollah in Venezuela?
    Admiral Stavridis. Iran views Venezuela as a gateway to increased 
involvement in Latin American affairs, leveraging Venezuelan ties in 
Latin America to diminish the effectiveness of UN sanctions and U.S. 
influence. Venezuela benefits by increasing its international profile 
while continuing to push an anti-U.S. Agenda. Increased support for 
Hizbollah would add to this anti-U.S. agenda.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOBIONDO
    Mr. LoBiondo. What do you see as the future of the Air Sovereignty 
Alert (ASA) mission in the future, both near term (one to five years) 
and long term (five years plus)?
    General Renuart. As long as we have population and infrastructure 
that our government deems necessary to protect, the requirement for the 
ASA mission will not diminish over both the near and long term. What 
will change are two things: (1) the asymmetric air threat, which likely 
will become increasingly sophisticated and (2) the ASA force structure, 
which will continue to evolve with modernized technologies and 
capabilities. Just as the September 11th attacks demonstrated a level 
of terrorist sophistication never before seen, we must be ready for the 
next level of asymmetric aerial attack. ASA aircraft will remain 
essential in getting eyes on unusual aerial activity, determining 
intent and ultimately defeating the aerial activity, if required. Our 
ASA force structure must remain technologically viable to counter 
future threat sophistication and of sufficient numbers to be postured 
to defend assets specified by our government.
    So, assuming the asymmetric threat will remain a reality, I believe 
the future of the ASA mission is a continued evolution to counter a 
more sophisticated air threat with the goal of protecting what we value 
most--our homeland and way of life.
    Mr. LoBiondo. Beginning in 2015, 80% of the Air National Guard ASA 
units begin losing aircraft due the planes running out of flying hours. 
How will this affect the ASA mission? Does the USAF and/or NORTHCOM 
have any plan to address this so-called Fighter Gap? And its effects on 
the ASA mission? What steps can this committee and Congress take to 
assist you in addressing the Fighter Gap issue?
    General Renuart. I have a requirement for a certain level of 
capacity to maintain the sovereignty of our nation's airspace. As such, 
I work closely with the Chiefs of the Services, not just the Air Force 
but the Navy and Marine Corps, to ensure we have a robust, sustainable 
capacity to fulfill this requirement in the next 10-20 years. The DoD 
is working very aggressively to look at bridge capabilities and I'm

comfortable with their approach. Congress can assist in addressing the 
``Fighter Gap'' by fully funding the President's current and future 
requests for fighter aircraft.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LARSEN
    Mr. Larsen. I understand that both AFRICOM and SOUTHCOM have used 
funding from the 1206 and 1207 (train and equip) programs to provide 
training and equipment to partner militaries in both South America and 
Africa. Could you briefly give a couple of examples of how this money 
has been used in your areas of responsibility?
    Admiral Stavridis. USSOUTHCOM used Section 1206 funds, with DoS 
concurrence, to support two major partner nation capacity building 
programs addressing Counter Terrorism (CT) requirements: Enduring 
Friendship Maritime Security Program and the Operation Enduring 
Freedom-Caribbean/Central America (OEF-CCA) CT Units.
    Enduring Friendship, USSOUTHCOM's key maritime security initiative, 
utilized 1206 funds to achieve Initial Operating Capacity (IOC) crew 
training, command-control-communication (C3), and interceptor boats for 
Jamaica, Bahamas, Nicaragua, Belize, and Honduras. Special Operations 
Command South (SOCSOUTH) also utilized the funds to support Operation 
Enduring Freedom-Caribbean Central America (OEF-CCA) in an effort to 
equip elite partner nation Counter-Terrorism units in support of 
Operation Enduring Freedom--Caribbean Central America (OEF-CCA). 
Countries were: Belize, Colombia, Guyana, Honduras, Paraguay, and 
Suriname.
    USSOUTHCOM used 1207 funds in Colombia for the U.S. Embassy's 
support to the Colombian government's `Colombian Coordination Centers 
for Integrated Action' (CCIA). The CCIA is a program designed to 
reestablish governance in previously ungoverned spaces of Colombia. It 
synchronizes the Colombian military's operations with the operations of 
other Colombian ministries.
    In Haiti, 1207 funds were used to support the Haiti Stabilization 
Initiative (HSI) run by DoS/SCRS (State Coordinator for Reconstruction 
and Stabilization). This project was built around small projects that 
develop local leadership, train and equip local police, including 
``community oriented police programs'', and provide justice system 
access to the residents of marginalized slums.
    Mr. Larsen. What steps do you take to ensure that 1206 and 1207 
money is being used to promote broader regional interests? To what 
extent is the State Department involved in formulating and approving 
funding plans? Has the State Department ever vetoed a DOD-formulated 
plan, or vice versa?
    Admiral Stavridis. The initiatives purchased under both 1206 and 
1207 were part of two major regional strategic and interagency 
programs: Enduring Friendship, USSOUTHCOM's key maritime security 
initiative; and Operation Enduring Freedom-Caribbean/Central America 
(OEF-CCA), the theater supporting plan to combat violent extremism. 
These activities under Enduring Friendship and OEF-CCA were 
synchronized with SOCOM programs. The Department of State/PM has 
ultimate authority to approve or deny both programs.
    Section 1207 initiatives in Colombia and Haiti were integrated and 
synchronized with the U.S. Embassy Country Team effort to support each 
partner nation's government plan to establish government presence and 
services in areas of the country taken over by armed illegal 
transnational groups. These programs are also synchronized with FMF to 
support sustainment in the out years for 1206 programs.
    Department of State has vetoed further funding of OEF-CCA 
initiatives due to the lack of compelling and credible evidence of an 
active Counter Terrorist threat presence in the Caribbean/Central 
America region.
    Mr. Larsen. I understand that both AFRICOM and SOUTHCOM have used 
funding from the 1206 and 1207 (train and equip) programs to provide 
training and equipment to partner militaries in both South America and 
Africa. Could you briefly give a couple of examples of how this money 
has been used in your areas of responsibility?
    General Ward. One example of 1206 funding is the Regional Maritime 
Awareness Capability (RMAC) Project. This capability gives the Coast 
Guard of Sao Tome and Principe the ability to observe maritime traffic 
and potential threats in its territorial waters. This 1206 project 
served as the catalyst for other assistance projects including U.S. 
Navy Seabee construction of a pier next to the RMAC facility, mapping 
of the port, and Defense Institute of International Legal Studies' 
assistance in developing maritime laws.
    1207 projects are in various stages of implementation and are 
proving to be successful. The Somalia Reconciliation and Stabilization 
program has made progress in

addressing tensions along the Somalia and Kenya border. For example, 
after a violent conflict between two clans, 1207 resources were used to 
establish dialogue among security personnel, high ranking government 
officials, and clan leaders.
    These accomplishments came about through interagency coordination 
and support, and through the use of critical 1206/1207 funding and 
flexible funding authorities.
    Mr. Larsen. What steps do you take to ensure that 1206 and 1207 
money is being used to promote broader regional interests? To what 
extent is the State Department involved in formulating and approving 
funding plans? Has the State Department ever vetoed a DOD-formulated 
plan, or vice versa?
    General Ward. The Department of Defense has a process in place for 
developing and prioritizing 1206 and 1207 requests. At the Africa 
Command level prior to submission to DoD, a board of Interagency 
experts consisting of representatives from USAID, Treasury Department, 
and U.S. Africa Command's Strategy, Plans, and Programs Directorate, 
Legal Counsel, and the Foreign Policy Advisor meet to detemiine the 
most effective use of 1206 and 1207 funding. This board uses criteria 
that are linked to U.S. Africa Command's theater strategy, long-term 
sustainability, how the project complements other programs already in 
place, and the current threat level within the area.
    The State Department is involved at the ground level in developing 
the 1206 and 1207 projects. The Offices of Security Cooperation and 
Defense Attache Offices work with their respective Country Teams to 
develop proposals supported by the Ambassador. U.S. Africa Command 
requires an Ambassador's cable approving the proposal before it is 
forwarded to the Joint Staff for consideration.
    U.S. Africa Command works closely with the Department of State 
Africa Bureau through the entire process to ensure the State Department 
is involved in formulating and approving the programs.
    Mr. Larsen. Given that the Commander of JFCOM has traditionally 
been ``dual-hatted'' in his role as combatant commander and commander 
of the Allied Command Transformation, how would you view this recent 
development of splitting up the position?
    General Mattis. If the political decision is made at NATO 
Headquarters to have a separate commander for Supreme Allied Command 
Transformation (SACT) I view this change as a positive development. 
Guiding the transformation and modernization of the twenty-eight NATO 
Nations and twenty-four Partner Nations is a full time job. It requires 
continuous interaction with NATO Headquarters leadership and National 
representatives. Likewise, interacting with Contact, Istanbul 
Cooperation Initiative (ICI), and Mediterranean Dialogue (MD) countries 
as well as various International and Regional Organizations such as 
United Nations and European Union requires a considerable investment of 
time. Nurturing the special relationship NATO has with Russia, Ukraine, 
and Georgia also places demands on SACT's time. By delinking the 
command of USJFCOM from ACT it will allow the Commander of U.S. Joint 
Forces Command to focus his attention on transforming and modernizing 
the U.S. Joint Force. Similarly, it will allow Supreme Allied Commander 
Transformation to devote the time and energy necessary for transforming 
NATO's military capabilities to meet the emerging challenges of the 
21st Century. Since the two commands are co-located in Norfolk I 
foresee no degradation in the working relationship between USJFCOM and 
ACT. The existing procedures and command relationships that have been 
institutionalized over the years between the two commands will continue 
to produce world-class collaboration, coordination, and information 
sharing results as if they were led by a single commander.
    Mr. Larsen. Recent reports state that a French officer may assume 
the position of Supreme Allied Commander-Transformation. How might this 
transform the relationship between NATO and U.S. forces?
    General Mattis. If the decision is made to assign a French Officer 
to command Allied Command Transformation I see this as strengthening 
the Trans-Atlantic link. The French bring a great deal of experience 
and expertise to the table. They have a modern military force, vibrant 
and innovative industry, a mature lessons learned process, excellent 
working relationships with a variety of international agencies and Non 
Governmental Organizations, strong democratic institutions, competitive 
economy, and a great deal of military experience around the world. 
These are all characteristics and qualities that will enable the French 
to effectively lead and guide NATO's military transformation. The 
French also have a solid understanding of whole of government approach 
to operations. They understand that to be effective at countering a 
wide variety of threats in the 21st Century a ``Comprehensive 
Approach'' to operations is necessary. This clear understanding of the 
future security environment will help NATO and the U.S. to better 
leverage best practices and

share lessons learned. Finally, the United States and France have a 
strong tradition of teamwork dating back to the Revolutionary War and 
extending through World War II. I see this same spirit of cooperation 
continuing if the French are assigned command of ACT.

                                  <all>

</pre></body></html>
